  Office of Inspector General
Export-Import Bank of the United States




   SEMIANNUAL
REPORT TO CONGRESS
October 1, 2011 to March 31, 2012
THE EXPORT-IMPORT BANK OF THE UNITED STATES
 The Export-Import Bank of the United States (Ex-Im Bank) is the official export credit
 agency of the United States. Ex-Im Bank supports the financing of U.S. goods and services
 in international markets, turning export opportunities into actual sales that help U.S.
 companies of all sizes to create and maintain jobs in the United States.
 Ex-Im Bank assumes the credit and country risks that the private sector is unable
 or unwilling to accept. Ex-Im Bank also helps U.S. exporters remain competitive by
 countering the export financing provided by foreign governments on behalf of foreign
 companies. More than 80 percent of Ex-Im Bank’s transactions have been made available
 for the direct benefit of U.S. small businesses in recent years.
 Information about the Bank is available at www.exim.gov.

OFFICE OF THE INSPECTOR GENERAL
 The Office of Inspector General (OIG), an independent office within Ex-Im Bank,
 was statutorily created in 2002 and organized in 2007. The mission of Ex-Im Bank
 OIG is to conduct and supervise audits, investigations, inspections and evaluations
 related to agency programs and operations; provide leadership and coordination as
 well as recommend policies that will promote economy, efficiency, and effectiveness
 in such programs and operations; and prevent and detect fraud, waste, abuse and
 mismanagement.
 The OIG is dedicated to acting as an agent of positive change to help Ex-Im Bank
 improve its efficiency and effectiveness. It keeps Ex-Im Bank’s Chairman and President
 and Congress fully informed about problems and deficiencies along with any positive
 developments relating to its administration and operations.

ONLINE AVAILABILITY
 Reports of OIG audits, evaluations, and other activities are available at
 www.exim.gov/oig.
 Information about the responsibilities of Inspectors General across the U.S. Government
 can be found at www.ignet.gov.
                         TA BLE OF CONTENTS

Message f rom the Inspector General	                                1

Highlights of this Semiannual Report	                               3

  OIG Management Initiatives	                                       6
  Council of the Inspectors General on Integrity and Efficiency	    7
  Review of Legislation & Regulations 	                             8

Ex-Im Bank Management Challenges 	                                  9

Of fice of Audit
  Summary of Audit Activities	                                     19
  Reports Issued	                                                  19
  On-Going Audits	                                                 27
  Audit Follow-Up	                                                 28

Of fice of Inspections & Evaluations
  Summary of Inspections & Evaluations Activity	                   31
  Reports Issued	                                                  32
  Ongoing Inspections & Evaluations	                               33
  Inspections & Evaluations Follow-Up	                             34

Of fice of Investigations
  Summary of Accomplishments	                                      41
  Summary of Investigations	                                       42
  Summary of Investigative Results	                                43
  Investigations	                                                  44
  Other Investigative Results	                                     51

Appendices
  Appendix A – Peer Review Reporting	                              55
  Appendix B – IG Act Provisions Requiring Reporting in SAR	       56
  Appendix C – Abbreviations & Acronyms	                           57




                   Office of Inspector General
      Export - Import Bank of the United States
                                                           M e s s age
                                                                   f rom t h e
                                                         I nspector G e n e r a l


As this reporting period closed, Export-Import Bank of the United States (Ex-Im Bank or
Ex-Im) found itself unexpectedly in the middle of a reauthorization impasse in Congress.
We have followed the debate closely and noted that two issues, concern for Ex-Im Bank’s
risk management and its economic impact procedures, have been prominently discussed.
Before I report on our accomplishments during this period, I’d like to note that the Office
of Inspector General (OIG) is working or has completed work on these issues as part of its
mission to promote efficiency and effectiveness in Ex-Im’s programs and operations.

First, in November 2011, our Office of Inspections and Evaluations commenced an
evaluation of Ex-Im Bank’s loss reserve allocation policies and risk mitigation practices.
Ex-Im Bank’s significant asset growth, the challenging economic environment, as well
as changes in the composition of its product portfolio and Congressional interest, led us
to start this evaluation. We expect to issue the results of this evaluation during the next
reporting period.

Second, in September 2010, we issued a comprehensive evaluation report on Ex-Im Bank’s
economic impact procedures, the requirement that Ex-Im assess whether a particular
transaction will negatively impact U.S. industry. The evaluation provided suggestions to
review and revise these complex procedures to increase transparency, make the process
more manageable for the range of participants involved, and address the accuracy of the
methodology used by Ex-Im Bank. Ex-Im Bank management indicated that it had begun
a review process of its economic impact procedures during the last reporting period;
however, the OIG suggestions remain open and unimplemented.

Now to our results. We have accomplished a great deal during the last six months to help
prevent and prosecute fraud and improve Ex-Im Bank’s programs and operations. Our
investigators obtained seven criminal judgments, $25,183,157 in criminal restitution,
forfeiture, and special assessments, and 14 administrative actions resulting in $3,203,066
in repayments to Ex-Im Bank. Our auditors oversaw the required Financial Statement
Audit, which had a financial impact of $172.1 million, and the Federal Information Security
Management Act audit, which found that while progress has been made, additional action
is needed to comply fully with federal guidance on information security.

In addition, we issued the results of an audit on Ex-Im Bank’s Information Technology (IT)
management. The audit found that the IT systems are not supporting Ex-Im Bank business




                          Office of Inspector General
             Export - Import Bank of the United States                                        Page 1
     operations efficiently and effectively. While the audit made 11 specific recommendations,
     the overall recommendation is for Ex-Im Bank business operations and IT teams to
     work together to develop an integrated IT application system to ensure that business
     is conducted effectively and efficiently to support Ex-Im Bank’s mission. Ex-Im Bank
     management agreed with our recommendations and has begun a project called Total
     Enterprise Modernization to implement these recommendations to meet customer needs.

     To help Ex-Im Bank improve its operational performance and meet customer needs, the
     Office of Inspections and Evaluations also issued its first report evaluating Ex-Im Bank’s
     performance metrics for operational efficiency, benchmarking Ex-Im Bank against 12 other
     Export Credit Agencies. This report found that Ex-Im Bank lacks a systematic approach
     to soliciting and measuring customer feedback on its performance and has not published
     comprehensive performance objectives to measure progress. This report provides Ex-Im
     Bank with recommendations on how to improve its operational performance and customer
     service in line with recent federal guidelines. A second phase of this report, a survey of
     Ex-Im Bank’s exporting clients, will provide feedback on customers’ views of Ex-Im Bank
     services and potential service improvements.

     Finally, I am pleased that our Office of Audit recently received a rating of pass during its
     external peer review process, confirming our audit work is in compliance with professional
     standards. All of these accomplishments would not be possible without the hard work,
     professionalism, and dedication of our excellent staff.




     Osvaldo L. Gratacós




                           Semiannual Report to Congress
Page 2                     October 1, 2011 through March 31, 2012
                                                              H igh l igh ts of t h is
                                                              S e mi a n n ua l R e port


The Office of Investigations (OI) capped the reporting period with several
accomplishments towards meeting mission objectives of investigating and preventing fraud
impacting Ex-Im Bank, including:

       •	 Obtained seven criminal judgments, including for two former bankers, resulting
          in 100 months imprisonment, 252 months’ probation, and $25,183,157 in criminal
          restitution, forfeiture, and special assessments. One defendant was acquitted after
          trial.
       •	 Obtained 14 administrative actions stemming from referrals of active investigative
          information resulting in $3,203,066 in repayments to Ex-Im Bank, two voluntary
          exclusions, 360 months of debarment, and one month of suspension.  1
       •	 Obtained ten criminal informations and indictments against subjects of ongoing
          investigations.
       •	 Obtained two arrest warrants and made two arrests based on warrants obtained
          by Ex-Im OIG Special Agents.
       •	 Entered eight plea agreements in court by subjects pursuant to ongoing
          investigative matters.
       •	 Provided 28 reports of investigative information to Ex-Im Bank Office of General
          Counsel concerning potential fraud and funds at risk to support enhanced due
          diligence efforts in approving, processing, and monitoring export credit loan
          guarantees and insurance policies.
       •	 Referred two investigative matters to the Department of Justice for prosecutive
          decision.


The Office of Audit (OA) completed three audits, one evaluation, and received a rating
of pass as a result of its recent peer review process during the reporting period.

       •	 Export-Import Bank’s Financial St atements for Fiscal Year
          2011 . An independent public accountant (IPA), working under OIG supervision,
          conducted an audit of Ex-Im Bank’s financial statements for fiscal year 2011. The
          IPA issued an unqualified opinion on Ex-Im Bank’s financial statements. The IPA



 1	   Administrative actions are responses taken by Ex-Im Bank to stop transactions, cancel policies, or
      protect funds at risk based upon investigative findings.




                           Office of Inspector General
              Export - Import Bank of the United States                                               Page 3
            did not find any reportable noncompliance with laws and regulations and did not
            identify any deficiencies in internal control considered to be material weaknesses.
            However, the IPA identified a significant deficiency in internal control. The
            significant deficiency concerned an error in the subsidy re-estimate on foreign
            currency transactions that initially caused a $134.1 million error in the total net
            subsidy cost. The IPA also noted certain non-significant deficiencies related to
            Ex-Im Bank’s internal control over financial reporting totaling approximately
            $38 million and made recommendations to address these deficiencies.
         •	 Information Technolog y (IT) Support for Export-Import Bank’s
            Mission . The audit found that, while the business operations at Ex-Im Bank
            are functioning and transactions are being processed, the IT systems are not
            supporting these operations efficiently and effectively. Overall, Ex-Im Bank IT
            systems and databases do not always capture and manage all necessary data for
            business needs and antiquated IT applications cause workflow inefficiencies. In
            addition, because not all applications for Ex-Im Bank products are electronically
            accepted and/or processed in a centralized database, and because Ex-Im Bank’s
            IT systems are not integrated, certain key data has to be manually entered into
            different Ex-Im Bank systems and transaction records hard copied to complete
            workflow processing tasks. The present IT application infrastructure makes it
            difficult for Ex-Im Bank to provide timely service, effectively manage and track its
            programs, measure progress, and increase productivity. Ex-Im Bank management
            concurred with the findings and 11 recommendations and will implement actions
            to address the recommendations.
         •	 Federal Information Securit y Management Act (FISMA) Audit .
            The fiscal year (FY) 2011 audit found that Ex-Im Bank adequately addressed
            many FISMA requirements. However, additional action is needed to comply fully
            with guidance issued by the Office of Management and Budget and the National
            Institute of Standards and Technology. The audit made two recommendations,
            which management implemented, that should strengthen Ex-Im Bank’s information
            security.
         •	 Evaluation of Export-Import Bank of the United St ates’
            Compliance with the Improper Payments Elimination and
            Recover y Act of 2010 (IPER A) . This statutorily required evaluation found
            that Ex-Im Bank did not include claim payments that were later found to be based
            on fraudulent information within the improper payment risk assessment. As
            such, the total number and value of improper payments reported by Ex-Im Bank
            for FY 2010 was understated. In addition, we found that Ex-Im Bank did not
            have in place a formal policy defining the procedural requirements that must be
            performed in order to comply with IPERA. While management concurred with our
            recommendation to develop an IPERA policy, it did not concur that it had to include
            claim payments later found to have been based on fraud in its improper payment
            risk assessment.




                        Semiannual Report to Congress
Page 4                  October 1, 2011 through March 31, 2012
   At the end of the reporting period, the OA had three audits in progress:

     •	 Audit of the Direct Loan Program . In the past three years, Ex-Im Bank has
        steadily increased direct loan authorizations for foreign borrowers. In FY 2009, it
        authorized 16 loans totaling approximately $3 billion, in FY 2010, 15 loans totaling
        approximately $4.3 billion, and in FY 2011, 18 loans totaling approximately
        $6.3 billion. Given this increase, the OA contracted an IPA to audit the Direct
        Loan program. The audit objectives are to (1) identify policies and procedures
        established by Ex-Im Bank to process, approve, and monitor its direct loans,
        (2) identify the effectiveness or weaknesses in these policies and procedures,
        and (3) determine whether Ex-Im Bank complies with its policies and procedures
        and applicable laws, rules, and regulations. The results for this audit should be
        released during the next reporting period.
     •	 Audit of the Short-Term Insurance Program . Ex-Im Bank’s Export
        Credit Insurance Program helps U.S. exporters sell their goods overseas by
        protecting them against the risk of foreign-buyer or other foreign-debtor
        default for political or commercial reasons, allowing them to extend credit
        to their international customers. In FY 2011, Ex-Im Bank had $6.8 billion in
        short‑term insurance authorizations. The audit objectives are to (1) identify and
        evaluate policies and procedures established by Ex-Im Bank related to its credit
        underwriting due diligence in the Short-Term Insurance Program, (2) identify
        effectiveness or weaknesses in these policies and procedures, and (3) determine
        whether Ex-Im Bank complies with its policies and procedures and applicable
        laws, rules, and regulations. The results for this audit should be released during
        the next reporting period.
     •	 Audit of the Government Purchase Card Program . The audit
        objectives are to determine whether the Bank’s policies and procedures comply
        with federal regulations and whether controls are adequate to ensure compliance
        with its policies and procedures. The results for this audit should be released
        during the next reporting period.


The Office of Inspections and Evaluations (OIE) completed an inspection and
an evaluation during this reporting period and is working on two evaluations.

     •	 Darussafaka Cement yi . A draft inspection report of a $39 million failed
        transaction to Darussafaka, a Turkish, non-government association, was
        completed this period. In December, 2003, Ex-Im Bank approved a long-term loan
        guarantee to Darussafaka. The guaranteed lender was Deutsche Bank. Proceeds
        of the loan were to support the sale of U.S. goods and services for the construction
        of a luxury retirement community in Urla and an auditorium in Istanbul (both
        in Turkey). The draft inspection report was referred to the OI for further
        investigation.




                         Office of Inspector General
            Export - Import Bank of the United States                                 Page 5
                •	 Ex-Im Bank Performance Metrics for Operational Eff iciency.
                   A policy evaluation report on Ex-Im Bank performance metrics, benchmarking
                   best practices in the Export Credit Agency (ECA) sector through a survey of
                   other ECAs, was issued this period. In general, this report found that Ex-Im Bank
                   lacks a systematic approach to soliciting and measuring customer feedback on
                   its performance and has not published comprehensive performance objectives to
                   measure progress as required by the Government Performance and Results Act
                   of 1993. Eight recommendations, based upon ECA best practices, were made to
                   improve Ex-Im Bank’s operational efficiency and customer service. Management
                   concurred with our recommendations.
                    The results of the ECA survey were presented at the Berne Union Conference  2 in
                    October, 2011. In addition, the findings were summarized in an article submitted
                    to The Journal of Public Inquiry, entitled, “Doing More with Less: How Export Credit
                    Agencies are Using Performance Metrics to Improve Customer Service.”

              At the end of the reporting period, two evaluations are in progress:

                •	 Ex-Im Bank Customer Sur vey Evaluation . This evaluation addresses
                   customer satisfaction and complements the above survey on ECA performance
                   metrics. Working with an independent contractor to conduct a survey of Ex-Im
                   Bank’s exporting clients, the objective is to identify perceptions of Ex-Im Bank’s
                   services and service delivery quality, satisfaction drivers, and potential service
                   improvements. Results of the survey will be analyzed and reported to Ex-Im Bank
                   management during the next reporting period.
                •	 Review of Loss Reser ve Policies and Risk Mitigation Practices .
                   This evaluation addresses the loss reserve and portfolio risk mitigation practices
                   of Ex-Im Bank. The need for a comprehensive review of these practices is driven in
                   large part by Ex-Im Bank’s significant asset growth and the challenging economic
                   environment as well as changes in the composition of its product portfolio. The
                   objectives of this evaluation are to review Ex-Im Bank’s (1) reserve allocation
                   policies and practices, (2) methodologies, data, and processes used to determine
                   loss factors, and (3) to identify portfolio risk mitigation and reserve allocation best
                   practices. Results of this evaluation should be released during the next reporting
                   period.



     OIG M a n age m e n t I n i t i at i v e s
     During this reporting period, the OIG made significant progress on various initiatives
     related to its investigations and inspections and evaluations programs. The OIG further


         2	    The Berne Union is an international organization of public and private sector providers of export credit and
               investment insurance dedicated to fostering international acceptance of sound principles in export credits and
               investments insurance, and by providing a forum for professional exchanges among its members.




                                   Semiannual Report to Congress
Page 6                             October 1, 2011 through March 31, 2012
strengthened its investigative capabilities and investigative support by entering into several
Memorandums of Understanding (MOU) with partner organizations, including the U.S.
Marshals Service. These MOUs will help OIG effectively utilize available information and
evidence to produce investigative results.

In addition, the OIG met with the World Bank Integrity Vice Presidency (INT) to discuss
international investigations, matters of mutual interest, and future efforts impacting both
World Bank funded projects intersecting Ex-Im Bank insurance, guarantees, or other types
of cross-cutting project finance. The international investigative work of the OIG may be
greatly enhanced through a partnership with INT where logistical support and capabilities
can help both organizations protect funds at risk.

The OIG is also seeking to work with international finance organizations and other ECAs
to enhance its work in promoting efficient and effective programs and operations at Ex-Im
Bank. During this reporting period, the OIE proactively met with representatives of other
ECAs and multilateral financial institutions to develop criteria on best practices regarding
performance metrics for operational efficiency, customer service, and loss reserve and
risk mitigation policies. The OIG will continue to work with these entities to find ways to
collaborate in identifying best practices and identifying and preventing fraud in Ex-Im Bank
programs and operations.




         C ou nc i l        of t h e I nspector s G e n e r a l
                           on I n t egr i t y a n d E f f ic i e nc y
The OIG is participating in the Professional Development Committee of the Council of
Inspectors General on Integrity and Efficiency (CIGIE). The Professional Development
Committee provides educational opportunities for members of the IG community, supports
the development of competent personnel, provides opportunities to improve training
methods and the development of OIG staff, and establishes training to meet continuing
education requirements. In addition, the OIE is participating in the CIGIE Inspection and
Evaluation Committee, which, among other things, leads the development of protocols for
reviewing management issues that cut across departments and agencies, promotes the
use of advanced program evaluation techniques, and fosters awareness of evaluation and
inspection practice in OIGs.




                          Office of Inspector General
             Export - Import Bank of the United States                                  Page 7
     R eview           of     L egisl at ion & R egu l at ions
     Pursuant to section 4(a)(2) of the IG Act, the OIG reviews proposed and existing legislation
     and regulations related to the Ex-Im Bank’s programs and operations. During this reporting
     period, proposed legislation to reauthorize Ex-Im Bank, S. 1547 and H.R. 2072, Securing
     American Jobs Through Exports Act of 2011, was still pending before Congress. In our last
     semiannual reporting period, we provided comments on the proposed legislation.




                          Semiannual Report to Congress
Page 8                    October 1, 2011 through March 31, 2012
                                             E x -I m B a n k M a n age m e n t
                                                               C h a l l e nge s


Beginning in February 2012, under the Government Performance and Results Act (GPRA)
Modernization Act of 2010, Ex-Im Bank must, among other requirements, prepare an agency
performance plan to establish performance goals and indicators, describe how the goals
will be achieved and measured, and describe major management challenges the agency faces
along with planned actions to address such challenges. The law defines “major management
challenges” as “programs or management functions . . . that have greater vulnerability to
waste, fraud, abuse, and mismanagement (such as issues identified by an Inspector General)
where failure to perform well could seriously affect the ability of an agency to achieve its
mission or goals.”

To help Ex-Im Bank prepare the agency performance plan, the OIG has identified major
management challenges facing Ex-Im Bank. We believe that addressing these challenges
would provide Ex-Im Bank with a more efficient capability to meet its mission of creating
and maintain jobs in the U.S. through export financing. We will review and update these
challenges each semiannual reporting period.

  1.	   Human Capit al . The OIG has noted Ex-Im Bank’s low number of underwriters or
        loan officers relative to the increasing size of its total asset exposure. Over the past
        five years, Ex-Im Bank has witnessed significant asset growth with total exposure
        growing to $89 billion as of FY 2011, with more than $32 billion in authorizations in
        FY 2011 alone. Ex-Im Bank has achieved this increase with basically the same staffing
        level for the past decade. This increase in workload undertaken by the same level
        of staffing may contribute to diminished customer service, oversight, due diligence,
        and resulting high default rates. To better serve its customers and provide effective
        underwriting and oversight, Ex-Im Bank should, within funding constraints, review
        and adjust its staffing levels and requisite in-house expertise to reflect the record
        growth in authorizations and ensure effective portfolio management.

  2.	 Information Technolog y (IT) Management . Ex-Im Bank uses an
      ineffective, inefficient, and fragmented IT platform and infrastructure composed
      of several systems and databases. These systems and databases do not effectively
      and accurately interface with each other – compromising data integrity, producing
      duplicative information, and creating unreliable files. Further, these systems
      make data mining burdensome and time consuming. This ineffective IT platform
      compromises the ability of Ex-Im Bank to provide timely service, effectively manage
      and track programs, measure progress, identify transaction patterns, and increase
      productivity.




                           Office of Inspector General
              Export - Import Bank of the United States                                        Page 9
                  During this reporting period, an outside contractor under the supervision of the
                  OIG, issued the results of an audit of the IT function at Ex-Im Bank, confirming our
                  observations (see OA Section below for more detailed information). The audit found
                  that, while the business operations at Ex-Im Bank are functioning and transactions
                  are being processed, the IT systems are not supporting these operations efficiently
                  and effectively. Overall, Ex-Im Bank IT systems and databases do not always capture
                  and manage all necessary data for business needs and antiquated IT applications
                  cause workflow inefficiencies. In addition, because not all applications for Ex-Im
                  Bank products are electronically accepted and/or processed in a centralized
                  database, and because Ex-Im Bank’s IT systems are not integrated, certain key
                  data has to be manually entered into different Ex-Im Bank systems and transaction
                  records hard copied to complete workflow processing tasks.

                  While the contractor identified 11 specific recommendations, the overall
                  recommendation is for Ex-Im Bank business operations and IT teams to work
                  together to develop an integrated IT application system to ensure that business is
                  conducted effectively and efficiently to support Ex-Im Bank’s mission. In response,
                  Ex-Im Bank management has kicked off the first in a series of processing system
                  projects that start with a detailed and thorough review of business requirements
                  and strategic direction with the business owners. The project plans then establish
                  a Business Stakeholders Steering Committee and a pool of identified business
                  users who will test and review any application development. We look forward to
                  working with Ex-Im Bank management as it moves forward to implement these
                  recommendations and develops an integrated and effective IT platform.

          3.	     Strategic and Performance Planning . Although Ex-Im Bank issued a
                  five‑year strategic plan in 2010, it has not developed a comprehensive annual
                  performance plan (APP) in accordance with Office of Management and Budget
                  guidance to properly quantify the effect and success of its program and operations. 1
                  An effective strategic plan describes goals the agency aims to achieve, what actions
                  the agency will take to realize those goals, and how the agency will deal with
                  challenges and risks that may hinder achieving results. An APP enables an agency
                  to have a framework to measure the costs, benefits, results, and outcomes of its
                  products, programs and initiatives.

                  During this reporting period, we issued an evaluation report on performance
                  metrics for operational efficiency whihch found that Ex-Im Bank has not issued
                  comprehensive performance plans and objectives to measure progress as required by


      1	        In our March 2011 semiannual report, we noted that, on December 2, 2010, Ex-Im Bank OIG issued a
                memorandum to Ex-Im Bank management requesting clarification on the application of Government
                Performance and Results Act of 1993 and the Report Consolidations Act of 2000 (RCA), which would
                allow Ex-Im Bank to consolidate any statutorily required reports into an annual Performance and
                Accountability Report. On March 16, 2011, Ex-Im Bank’s General Counsel replied that commencing in FY
                2012, Ex-Im Bank would begin filing an Annual Performance Plan in accordance with the Government
                Performance and Results Act of 1993.




                                  Semiannual Report to Congress
Page 10                           October 1, 2011 through March 31, 2012
      GPRA. Furthermore, under the GPRA Modernization Act of 2010, Ex-Im Bank is now
      required to, among other things, produce an APP and an annual performance report
      beginning in February 2012.

      We believe engaging in this process will help Ex-Im Bank focus its resources, establish
      clear and measurable goals, and continuously monitor its performance. As of the end
      of this reporting period, we had not received Ex-Im Bank’s APP for FY 2012.

4.	   Risk Management . Almost three years after the beginning of the financial crisis,
      the financial world is still undergoing the aftershocks. Volatility in global financial
      markets is more pronounced. Given Ex-Im Bank’s position as a “lender of last resort”,
      its authorizations have grown in record numbers to support U.S. exports as private
      lending has contracted or plateaued. Ex-Im Bank’s significant asset growth over the
      past five years, however, presents a continual risk management challenge — how to
      adequately allocate reserves to cover potential losses in its credit portfolio so that
      taxpayers are not affected by any unforeseen economic crisis.

      The lessons learned from the crisis include the inadequacy of overreliance on
      historical quantitative market data and the need for more robust scenario analysis
      and stress testing. Different theories have emerged from the financial crisis to
      supplement traditional risk management models. In essence, they encourage
      supplementing quantitative data with contextual qualitative data and the testing of
      worst case scenarios to determine whether financial institutions have the requisite
      reserves to withstand exogenous shocks.

      Given the importance of risk management for Ex-Im Bank, during this reporting
      period, the OIE commenced an evaluation of Ex-Im Bank’s loss reserve policies and
      risk mitigation practices. The need for a comprehensive review of these policies
      and practices is driven in large part by Ex-Im Bank’s significant asset growth and
      the challenging economic environment as well as changes in the composition of its
      product portfolio. We expect to issue the results of this evaluation during the next
      reporting period.

5.	   Customer Ser vice . Ex-Im Bank has not conducted customer satisfaction surveys
      on a regular basis. Customer surveys provide valuable insight into customer
      priorities, perceptions of Ex-Im Bank performance, areas for improvement, and other
      ECA best practices. For example, some Ex-Im Bank participants have complained in
      the past about approval times and process. Reducing the time it takes to approve
      transactions would allow American exporters to develop better relationships with
      clients and customers, encourage borrowers and sellers to use Ex-Im Bank, and
      improve the services Ex-Im Bank provides to its users. Indeed, the importance of
      federal agency customer service was highlighted by President Obama’s April 27, 2011,
      Executive Order 13571 instructing Federal agencies (including independent agencies)
      to develop a customer service plan to streamline service delivery and improve
      customer experience.




                         Office of Inspector General
            Export - Import Bank of the United States                                  Page 11
              To address these issues, during this reporting period, the OIE issued an evaluation
              report on Ex-Im Bank’s performance metrics for operational efficiency and worked
              with Ex-Im Bank management to develop a customer survey. The OIG contracted a
              company with customer survey expertise to conduct the survey. We expect to report
              on the customer survey results during the next reporting period. Moving forward,
              we recommend that Ex-Im Bank routinely conduct and utilize customer surveys to
              validate the priorities of its customers and its performance plan.

          6.	 Credit Under writing and Due Diligence Practices . Currently, Ex-Im Bank
              uses a decentralized underwriting process and a risk-based due diligence model. 2
              Given the lessons learned from incidences of fraud in the Medium-Term program,
              the surge in the number of transactions, and insufficient credit information and
              history from borrowers in some regions, it is vital that Ex-Im Bank enhance credit
              underwriting and due diligence practices in order to better identify and prevent
              fraudulent transactions.

              In July 2010, Ex-Im Bank’s Board of Directors issued an Individual Delegated
              Authority (IDA) resolution authorizing certain individual Ex-Im Bank officers to
              approve loans, guarantees, and insurance up to $10 million. Before the IDA, Ex-Im
              Bank approved these transactions through a Credit Committee composed of members
              from different programs. The IDA resolution decentralized underwriting and
              decision making authority to each business unit. However, absent strong policies
              and procedures, decentralized underwriting and due diligence practices may cause
              inconsistent criteria to be applied in different programs.

              Ex-Im Bank needs to develop effective policies, procedures, and compliance practices
              to ensure the IDA works effectively. Some of these policies should address the
              following:

              a.	 Uniform credit and underwriting standards within each program to be used by all
                  Ex-Im Bank credit officers.
              b.	 Frequent use of security interest and sporadic inspections in order to better
                  mitigate risks in programs and regions where defaults and fraud experience has
                  been high.
              c.	 Use of financial statements in programs where defaults and fraud experience is
                  high, in particular independently audited financial statements in regions where
                  Ex-Im Bank has limited or unfavorable lending experience.

              During this reporting period, Ex-Im Bank’s Credit Policy division continued work
              on updating its Credit Manual to ensure consistency in application processing


      2	    Under a risk-based model, the scope and depth of due diligence performed on a transaction varies
            depending on the perceived risk based on a variety of factors, such as the size of the transaction,
            country of import, nature of goods, and experience with the transaction participants.




                              Semiannual Report to Congress
Page 12                       October 1, 2011 through March 31, 2012
         and decision-making. In addition, Ex-Im recently began requiring a first-priority
         security interest in equipment supported under the Medium-Term Program. We
         also commenced audits of the Short-Term Insurance Program and the Direct Loan
         Program to address some of these concerns. We expect to issue the results of these
         audits during the next reporting period.

         One of the patterns observed in our investigations is the lack of due diligence efforts
         by lenders, specifically the ones who have a history of defaulted transactions.
         Indeed, the OIG has anecdotal evidence of loan officers in lending institutions
         expressing that the lender would not devote resources on due diligence efforts when
         there is a government guarantee and that such efforts are not required by Ex-Im
         Bank. Even though Ex-Im Bank expects such efforts from participating lenders,
         due diligence is not required in all lender agreements. Although the OIG is not in a
         position to state that this is a behavior demonstrated by all lenders, we can certainly
         state that this “moral hazard” issue has been prevalent in fraud cases involving
         multiple transactions.

         We believe Ex-Im Bank should require lender partners and participants to conduct
         industry standard due diligence on government guarantees and insurance
         transactions. Effective implementation of “Know Your Customer” practices by
         lenders could help minimize or prevent fraudulent activity.

 7.	     Corporate Governance, Business Processes, and Internal Control
         Policies and Practices . One of the consistent observations arising out of
         audits, evaluations, and investigations conducted by the OIG are the weaknesses in
         governance and internal controls in business operations. Internal policies providing
         clear guidance to staff and establishing clear roles and authorities are not prevalent
         at Ex-Im Bank. These areas need to be addressed as part of creating a better
         corporate governance culture.

         For example, during our review of Ex-Im Bank’s Nigerian credit facility,  3 we
         noted that Ex-Im Bank did not have any policies and procedures in place when
         establishing the facility. In particular, Ex-Im Bank management failed to create
         policies and procedures that would document and memorialize the steps to be taken
         to approve credits, factors to be considered when approving credit, factors that
         would cause denial of credit or the cancellation of the credit lines, and the extent
         of the due diligence efforts for such transactions and markets. Moreover, Ex-Im
         Bank management did not develop steps outlining how the Nigerian banks’ credits
         were going to be renewed, factors affecting the renewals, and reporting of facility
         activities to the Board of Directors under the Special Delegation Authority granted by
         the Board.



3	     Review of the Export-Import Bank Nigerian Facility, Special Report, June 10. 2011, can be found at
       http://exim.gov/oig/documents/TransmittalandReport_110607.pdf.




                             Office of Inspector General
                Export - Import Bank of the United States                                         Page 13
                  Each OIG audit, evaluation, and inspection will review applicable governance
                  and internal controls and make recommendations to strengthen such controls
                  accordingly. The audits of the Short-Term Insurance Program and the Direct Loan
                  Program are focusing on these issues. We expect to issue the results of these audits
                  during the next reporting period.

          8.	 Renewable Energ y Products and Clean Energ y Export Opportunities .
              Ex-Im Bank’s charter contains a Renewable Energy mandate of ten percent of all the
              authorizations every year. Although its financing for environmentally beneficial
              exports has increased significantly during the last two years, Ex-Im Bank has
              not met this mandate yet, mainly because the renewable energy exports have not
              reached significant numbers (compared with the size of Ex-Im Bank’s portfolio). 4
              Nonetheless, Ex-Im Bank has taken a proactive approach in developing renewable
              energy specific products such as Solar Express, as well as reaching out to local wind
              and solar manufacturers.

                  In July 2010, U.S. Government Accountability Office (GAO) issued a report on Ex-Im
                  Bank’s Environmentally Beneficial Exports. 5 It found that although some of the
                  challenges to reach the target may be outside its control, Ex-Im Bank should develop
                  a clear strategy for meeting the target that is integrated into a broader approach.
                  It specifically recommended that Ex-Im Bank improve the tracking, reporting, and
                  planning of its exports strategy to determine the resources required to meet its
                  target. We continue to monitor Ex-Im Bank’s progress in this area.

          9.	     Small Business Participation . Since the 1980s, Congress and the Executive
                  Branch have prioritized the expansion of exports by small businesses. Since 2002,
                  Ex-Im Bank’s charter has imposed a twenty percent small business participation
                  requirement of all aggregate authorizations every fiscal year. Ex-Im Bank has
                  exceeded this mandate in the last five fiscal years. However, although it reached
                  an all-time record of $6 billion in small business export financing in FY 2011, this
                  amount fell short of the required twenty percent of all $32 billion in financing.

                  GAO has reported on several aspects of Ex-Im Bank’s financing for small business
                  exports. Most recently, GAO reported on the performance standards that Ex-Im
                  Bank established for assessing its small business financing efforts. GAO found that
                  Ex-Im Bank had developed performance standards in most, although not all, of the
                  areas specified by Congress, ranging from providing excellent customer service to



      4	        According to Department of Commerce data, the U.S. exported roughly $2 billion of manufactured
                renewable energy goods in 2009. In FY 2011, Ex-Im Bank supported $720 million in renewable energy
                financing, up from $30 million in 2008.

      5	        Export-Import Bank, Reaching New Targets for Environmentally Beneficial Exports Presents Major
                Challenges for Bank, July 2010, GAO-10-682, is available at http://www.gao.gov/new.items/d10682.
                pdf.




                                 Semiannual Report to Congress
Page 14                          October 1, 2011 through March 31, 2012
       increasing outreach. 6 GAO also found that some measures for monitoring progress
       against the standards lacked targets and time frames and that Ex-Im Bank was just
       beginning to compile and use the small business information it was collecting to
       improve operations. We urge management to finalize its Small Business performance
       plan and metrics to improve its program operations. We continue to monitor Ex-Im
       Bank’s progress in this area.




6	   Export-Import Bank: Performance Standards for Small Business Assistance Are in Place but Ex-Im Is in
     the Early Stages of Measuring Their Effectiveness, July 2008, GAO-08-915, is available at http://www.
     gao.gov/assets/280/278336.pdf.




                           Office of Inspector General
              Export - Import Bank of the United States                                           Page 15
                    OFFICE OF AUDIT




             Office of Inspector General
Export - Import Bank of the United States   Page 17
                                                            S u mm a ry of A u di t
                                                                      A ct i v i t i e s


The Office of Audit (OA) conducts independent and objective performance and financial
audits relating to Ex-Im Bank operations and programs, and oversees the annual financial
statement audit performed by and independent public accounting firm under contract. All
OIG audits are performed in accordance with generally accepted government accounting
standards (GAGAS) promulgated by the Comptroller General of the United States.
Furthermore, OA refers irregularities and other suspicious conduct detected during audits or
assessments to the Office of Investigations for investigative consideration.

The OA completed three audits and one evaluation during the six months ended March 31,
2012:

  1.	   Export-Import Bank’s Financial Statements for Fiscal Year 2011

  2.	 Information Technology Support for Export-Import Bank’s Mission

  3.	   Fiscal Year 2011 Information Security Program and Practices Audit

  4.	   Evaluation of Export-Import Bank of the United States’ Compliance with the Improper
        Payments Elimination and Recovery Act of 2010

At the end of the reporting period, the OA had three audits in process:

  1.	   Audit of the Direct Loan Program

  2.	 Audit of the Short-Term Insurance Program

  3.	   Audit of the Government Purchase Card Program



                                                           R e ports I s su e d
                           Export-Import Bank’s Financial St atements for Fiscal
                                    Year 2011 (OIG-AR-12-01, November 15, 2011)
                    http://exim.gov/oig/documents/FY11%20Financial%20Statement%20Audit.pdf


An independent public accountant (IPA), working under OIG supervision, conducted an audit
of Ex-Im Bank’s financial statements for fiscal year 2011. The IPA issued an unqualified
opinion on Ex-Im Bank’s financial statements. The IPA did not find any reportable




                           Office of Inspector General
              Export - Import Bank of the United States                                  Page 19
     noncompliance with laws and regulations and did not identify any deficiencies in internal
     control considered to be material weaknesses. However, the IPA identified a significant
     deficiency in internal control. 1

     The significant deficiency concerned an error in the subsidy re-estimate on foreign currency
     transactions that initially caused a $134.1 million error in the total net subsidy cost.
     Because financial and economic factors affecting the repayment prospects change over time,
     the net estimated credit loss of the outstanding balance of loans, guarantees and insurance
     is re-estimated annually in accordance with Office of Management and Budget (OMB)
     Guidelines. The re-estimate calculation is a critical process to evaluate Ex-Im Bank’s future
     cash flow needs based on current borrowings and investments with U.S. Treasury and any
     expected portfolio cash flows and defaults.

     The IPA found that the Microsoft Excel macro script used to generate cash flow streams for
     the OMB re-estimate data calculation template did not utilize the correct default rate for
     some foreign currency transactions. The correction led to a reduction in the re-estimate of
     the net subsidy cost. Management corrected this amount in the issued financial statements.

     The recommended action to correct this deficiency was that management perform a
     thorough review of the Microsoft Excel macro script and perform a reasonable check of
     the Microsoft Excel macro results. On a sample basis, a comparison of the results from
     the Microsoft Excel macro and an independent calculation of cash flow streams were
     recommended. Management agreed with the recommendation.


     Fiscal Year 2011 Financial St atement Audit – Management
     Let ter (OIG-AR-12-03, Januar y 3, 2012)
     http://exim.gov/oig/documents/FY11_Fin_Statement_Audit_Ltr.pdf


     During the annual financial statement audit, the IPA noted certain deficiencies related to
     Ex-Im Bank’s internal control over financial reporting totaling approximately $38 million
     and other matters and recommendations to address these deficiencies as follows:

          1.	 Loss Factor Historical Claims Data

              Certain historical claims data were excluded from the loss factor calculation.
              Therefore, net claims data used to develop the default rate were not complete
              and accurate. The subsidy estimate based on that default rate was subsequently



      1	    A deficiency in internal control exists when the design or operation of a control does not allow
            management or employees, in the normal course of performing their assigned functions, to prevent,
            or detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or a
            combination of deficiencies, in internal control that is less severe than a material weakness, yet
            important enough to merit attention by those charged with governance.




                              Semiannual Report to Congress
Page 20                       October 1, 2011 through March 31, 2012
      inaccurate. The omission of the historical claims data resulted in inaccurate loss rates
      which caused an overstatement of the loss allowance of approximately $28 million.
      Management immediately corrected the data, recalculated the subsidy, and made an
      adjusting entry to the financial statements.

      The IPA recommended the Chief Financial Officer (CFO) should require a detailed
      review of the historical claims data be performed by at least two competent
      individuals in the Office of the CFO to ensure that historical claims data is complete
      and accurate. Management agreed with the recommendation.

2.	 Inaccurate Risk Rating

      The risk ratings for credits monitored by the Project & Corporate Portfolio
      Management (PCPM) division (excluding Portfolio Monitoring and Control
      Group  – PMCG) were not fully reconciled between the Loan/Guarantee and Accounting
      System (LGA) and the Asset Management System (AMS). AMS contains the approved
      risk rating reports. These risk ratings should be fully reconciled to LGA to ensure the
      accuracy of the risk ratings used for subsidy re-estimate calculation. The re-estimate
      calculation is a critical process to evaluate Ex-Im Bank’s future cash flow needs based
      on current borrowings and investments with U.S. Treasury and any expected portfolio
      cash flows and defaults.

      The PCPM division performed the review of the risk ratings between AMS and LGA on
      a sample basis instead of reviewing all transactions under the responsibility of PCPM
      division. Five credits under PCPM did not have a correct risk rating which resulted in
      an overstatement of allowance of approximately $8.4 million.

      The IPA recommended the CFO should direct the PCPM division officer to reconcile
      all risk ratings between AMS and LGA for all transactions under its portfolio.
      Management agreed with the recommendation.

3.	   Short-Term Single Buyer (STSB) Insurance Subsidy Calculation

      During the IPA’s subsidy calculation testing, it noted that the subsidy for short‑term
      single buyer insurance was incorrectly calculated. The subsidy was calculated based
      on 100% of the transaction amount instead of 90%. The subsidy for short-term single
      buyer insurance should be based on 90% of the transaction amount, which is the risk
      assumed by Ex-Im Bank. The Ex-Im Online (EOL) system calculated the subsidy amount
      for short-term single buyer insurance by applying the subsidy rates to the incorrect
      field. Subsidy for short-term single buyer transactions authorized in FY 2011 was
      overstated by approximately $1.6 million.

      The IPA recommended the Chief Information Officer (CIO) should correct the EOL
      system code so that the subsidy rates are applied to the appropriate field. Management
      agreed with the recommendation.




                         Office of Inspector General
            Export - Import Bank of the United States                                   Page 21
          4.	   Trade Credit Insurance Originations

                Certain Multi-Buyer Insurance products, including Special Buyer Credit Limit (SBCL)
                or Issuing Bank Credit Limit (IBCL) products, did not receive the required approval as
                specified in the Individual Delegated Authority policy. Seventeen transactions were
                approved by personnel without appropriate approval authority. Due to inaccurate
                coding of business rules, the EOL system did not recognize the increased policy limit
                from amendments and renewals to certain Multi-Buyer Insurance products, including
                SBCL and IBCL products; therefore, the product renewals and amendments were not
                properly routed through the EOL system in accordance with the IDA approval policy.

                The IPA recommended the Vice Presidents of Trade Finance and Trade Credit
                Insurance should perform an annual review of the EOL business rules to ensure the
                IDA policy is implemented properly. Management agreed with the recommendation.

          5.	   Monitoring of Credits “In Transfer”

                Most credits are monitored by the Office of the CFO to determine the appropriate risk
                rating. However, certain transactions with “in transfer” status were not monitored
                by the Office of the CFO. These transactions were monitored by the originating
                department. All transactions authorized by Ex-Im Bank should be monitored by the
                Office of the CFO to help ensure proper risk rating for financial reporting purposes.
                Under existing Ex-Im Bank policy, operative credits can, in certain circumstances,
                remain with the originating department for an extended period and therefore are
                not part of the monitoring process by the Office of the CFO. No change in risk rating
                was noted. However, there is a possibility that a review by the Office of the CFO could
                result in a change to the risk rating determined by the originating department.

                The IPA recommended the CFO should ensure that transactions with “in‑transfer”
                status are included in the monitoring process performed by the Office of the CFO.
                Management agreed with the recommendation.

          6.	 Reprographic Error on the published 2010 Annual Report

                Several figures and words in the 2010 published financial statements, footnotes,
                and Management Discussion and Analysis (MD&A) were changed between the final
                printer’s proof and published versions. The figures and words in the financial
                statements, footnotes, and MD&A were altered by the printing office without
                approval from the Office of CFO of Export-Import Bank. Several numbers were
                incorrect. Some words were changed and some phrases were re-arranged. The
                numerical changes were insignificant. Changes in words and phrases did not affect
                the meaning of the sentence or paragraph.

                The IPA recommended the CFO should work with the printing office to ensure all
                changes to documents are reviewed and approved by Ex-Im Bank personnel. The final




                              Semiannual Report to Congress
Page 22                       October 1, 2011 through March 31, 2012
       printed financial statements, footnotes, and MD&A should be compared to the final
       printer’s proof to ensure no unauthorized changes have been made. Management
       agreed with the recommendation.


                             Fiscal Year 2011 Information Securit y Program and
                              Practices Audit (OIG-AR-12-02, December 19, 2011)
                     http://www.exim.gov/oig/documents/FISMA_REPORT_2011_Web_Version.pdf


The Federal Information Security Management Act (FISMA) requires an annual independent
evaluation of Ex-Im Bank’s information security program and practices. The OIG contracted
with an IPA to evaluate Ex-Im Bank’s security controls over information. The audit found
that Ex-Im Bank adequately addressed many FISMA requirements. Accomplishments
include:

      •	 Documenting contingency plans and performing contingency testing.
      •	 Maintaining an adequate Plan of Action and Milestones process.
      •	 Developing incident reporting policies and procedures.
      •	 Complying with remote access guidance.
      •	 Developing and implementing a security training program.
      •	 Establishing an enterprise-wide continuous monitoring program.
      •	 Establishing and maintaining a program to oversee systems operated on its behalf
         by contractors or other entities.
      •	 Adequately implementing a security configuration management program.
      •	 Addressed one out of two findings issued as part of the prior-year FISMA audit.

While the above are positive efforts, additional action is needed to comply fully with
guidance issued by OMB and the National Institute of Standards and Technology. The audit
made two recommendations, which management implemented, that should strengthen Ex-Im
Bank’s information security.

Because this report addresses issues associated with information security at Ex-Im Bank,
the OIG did not make the complete report available on-line.


                      Information Technolog y (IT) Support for Export-Import
                             Bank’s Mission (OIG-AR-12-04, Januar y 24, 2012)
                     http://exim.gov/oig/documents/IT%20Support%20OIG-AR-12-04%20508.pdf


The OIG contracted the services of an independent contractor to complete a performance
audit of Ex-Im Bank’s IT infrastructure management. The audit evaluated whether the IT
systems at Ex-Im Bank are able to support Ex-Im Bank’s mission effectively and efficiently.




                          Office of Inspector General
             Export - Import Bank of the United States                                 Page 23
     The audit found that, while the business operations at Ex-Im Bank are functioning and
     transactions are being processed, the IT systems are not supporting these operations
     efficiently and effectively. Overall, Ex-Im Bank IT systems and databases do not always
     capture and manage all necessary data for business needs and antiquated IT applications
     cause workflow inefficiencies. In addition, because not all applications for Ex-Im Bank
     products are electronically accepted and/or processed in a centralized database, and
     because Ex-Im Bank’s IT systems are not integrated, certain key data has to be manually
     entered into different Ex-Im Bank systems and transaction records hard copied to complete
     workflow processing tasks. Furthermore, Ex-Im Bank does not have practices to effectively
     manage its IT strategic planning, IT spending, and the System Development Life Cycle (SDLC)
     and Program Change Management (PCM) process.

     The identified findings were as follows:

          1.	   Business Operations

                •	 Key IT applications are inefficient and incapable of capturing certain data,
                   automating workflow procedures and integrating data. Ex-Im Bank’s IT systems
                   do not fully support its operations and reporting function because IT systems are
                   not integrated and participant data is not effectively and efficiently processed.
                   Data is manually keyed into multiple systems, working files are duplicated
                   by offices for their respective processing, and manual tasks are performed to
                   complete business processes.
                •	 Participant data, which is data related to anyone involved in a transaction such
                   as the applicant, lender, exporter, supplier, guarantor, etc., is not timely and fully
                   captured. Two main IT systems, the Application Processing System and EOL,
                   designed for the processing of loan, guarantee, and insurance products, cannot
                   provide a complete view of participant activity due to difficulty in linking or
                   highlighting duplicate participant data. These weaknesses result in employees
                   researching missing data, difficulty in obtaining accurate and timely reports
                   surrounding the Ex-Im Bank’s operations, and preventing Ex-Im Bank and the
                   OIG from efficiently conducting forensic analysis to identify possible patterns in
                   transactions.

          2.	 Information Technology

                Ex-Im Bank does not have practices to effectively manage its strategic planning, IT
                spending, and the SDLC and PCM. The audit found that the Office of the CFO (1) does
                not have sufficient detailed information on the amount of IT spending versus plans
                and the specific purpose for each expenditure, (2) the Strategic Plan was not formally
                approved and is not sufficiently comprehensive to coordinate and manage initiatives,
                (3) and the SDLC and PCM processes are not consistently followed. Failure to
                have strong controls in these areas prevents management from determining and
                monitoring the best use of funds to improve IT support of Ex-Im Bank’s mission.




                              Semiannual Report to Congress
Page 24                       October 1, 2011 through March 31, 2012
The report’s recommendations included:

•	 Have the business owners individually and in aggregate reevaluate their business
   requirements and minimum relevant data necessary to process transactions
   involving complex structures and to monitor business operations. They should
   then work with the Office of Information Technology to initiate, develop, and test
   an integrated application that is aligned with those needs and in support of Ex-Im
   Bank’s mission.
•	 Develop a formal working file document management policy. By developing a
   formal policy, Ex-Im Bank would additionally (a) educate Ex-Im Bank employees
   to ensure they understand the need to share consistent information across
   departments, (b) establish the means to retain and share working file documents,
   (c) store the policy in a readily accessible medium, and (d) implement a
   mechanism to monitor compliance to the formal policy.
•	 Implement a Bank-wide unique identifier to ensure that all new participants
   can be readily identified and returning participants are associated with their
   historical transactions.
•	 Have the business owners revise the required minimum participant data
   necessary to process an application. Ex-Im Bank should only process applications
   that meet those minimum criteria.
•	 Develop a formal data management policy and procedures to ensure complete
   and accurate participant data is captured in Ex-Im Bank’s centralized database
   and define which information is required for reporting purposes. The policy and
   procedures should include, as soon as possible, a clear definition and management
   of participant identification so it can link participants to transactions.
•	 Require that the formal data management policy and procedures be
   (a) communicated to appropriate Ex-Im Bank employees, (b) reviewed annually,
   updated, and re-communicated accordingly, and (c) stored in a readily accessible
   medium.
•	 Collaborate to develop a formally approved robust process for creating a clear and
   comprehensive IT Strategic Plan according to OMB requirements to effectively
   support Ex-Im Bank’s mission.
•	 Classify requested and authorized IT funds according to OMB’s Circular A–11
   definitions on the development and modernization of IT versus the amount being
   spent on operating and maintaining the status quo for IT.
•	 Enhance or replace the Administrative Accounting Activity system or develop an
   IT system to provide current information on actual versus planned IT spending
   to ensure the proper management of IT operation and maintenance spending and
   investments.
•	 Formally direct the CIO on the implementation of the new requirements
   prescribed in OMB’s M-11-29, Chief Information Officer Authorities.




                   Office of Inspector General
      Export - Import Bank of the United States                                Page 25
                •	 Ensure Ex-Im Bank’s SDLC process is consistently followed when implementing
                   major systems and performing system changes.

           Ex-Im Bank management concurred with the findings and recommendations and will
           implement actions to address the recommendations.


     Evaluation of Export-Import Bank of the United St ates’
     Compliance with the Improper Payments Elimination and
     Recover y Act of 2010 (IPER A) (OIG-EV-12-01, March 12, 2012)
     http://www.exim.gov/oig/documents/Final-Report-Complete-120312.pdf


     The OIG conducted an evaluation to determine whether the Ex-Im Bank is in compliance
     with the requirements of IPERA. The evaluation found that Ex-Im Bank properly determined
     whether payments were proper or improper in their risk assessment. In addition, Ex-Im
     Bank completed the “Improper Payment Risk Assessment Questionnaire for FY 2010” as
     part of their risk assessment as well as issued a summary documenting the internal controls
     encompassing improper payments.

     While Ex-Im Bank’s efforts were positive, we found that:

          1.	   Ex-Im Bank did not include in their improper payment risk assessment claim
                payments that were later found to be based on fraudulent information. As such, the
                total number and value of improper payments reported by Ex-Im Bank for FY 2010
                was understated.

          2.	 Ex-Im Bank did not have in place a formal policy defining the procedural
              requirements that must be performed in order to comply with IPERA.

     We made two recommendations to address these findings:

          1.	   The Office of Controller (OC) should include claim payments based on fraudulent
                information in the improper payment risk assessment and determine whether
                additional steps should be taken in accordance with OMB M-11-16.

          2.	 The OC should develop and adopt a formal written policy that provides the procedural
              requirements to ensure consistency in future reviews and to comply with all of the
              applicable IPERA provisions.

     Management did not concur with the first finding and recommendation and will seek
     OMB feedback on the methodology. Management concurred with the second finding and
     recommendation.




                              Semiannual Report to Congress
Page 26                       October 1, 2011 through March 31, 2012
                                                     O n -G oi ng A u di ts
                                                   Audit of the Direct Loan Program
In the past three years, Ex-Im Bank has steadily increased direct loan authorizations
for foreign borrowers. In FY 2009, it authorized 16 loans of approximately $3 billion, in
FY 2010, 15 loans of approximately $4.3 billion, and in FY 2011, 18 loans of approximately
$6.3 billion. Given this increase in the Direct Loan program, the OA contracted with an IPA
to audit the Direct Loan program. The audit objectives are:

  1.	   Identify policies established by Ex-Im Bank to process, approve, and monitor its
        direct loans in accordance with applicable laws, rules, and regulations.

  2.	 Identify procedures used by Ex-Im Bank to process, approve, and monitor its direct
      loans in accordance with applicable laws, rules, and regulations.

  3.	   Identify effectiveness or weaknesses in these policies and procedures.

  4.	   Determine whether Ex-Im Bank complies with its own Direct Loan Program policies
        and procedures and applicable laws, rules, and regulations.

Audit work commenced in March 2012. The OIG anticipates the IPA will issue its audit report
in August 2012.


                                       Audit of the Short-Term Insurance Program
Ex-Im Bank’s Export Credit Insurance Program helps U.S. exporters sell their goods overseas
by protecting them against the risk of foreign-buyer or other foreign-debtor default for
political or commercial reasons, allowing them to extend credit to their international
customers. In FY 2011, Ex-Im Bank had $6.8 billion in short-term insurance authorizations.
An IPA, working under the OIG oversight, is conducting an audit of Ex-Im Bank’s Short-Term
Insurance Program. The audit objectives are:

  1.	   Identify and evaluate policies and procedures established by Ex-Im Bank related to
        its credit underwriting due diligence in the Short-Term Insurance Program.

  2.	 Identify and evaluate policies and procedures established by Ex-Im Bank to ensure
      applicable exported merchandise was shipped to the approved designated country.

  3.	   Identify effectiveness or weaknesses in these policies and procedures.

  4.	   Determine whether Ex-Im Bank complies with its policies and procedures and
        applicable laws, rules, and regulations.

Audit work commenced in March 2012. The OIG anticipates the IPA will issue its audit report
in August 2012.




                           Office of Inspector General
              Export - Import Bank of the United States                                    Page 27
     Audit of the Government Purchase Card Program
     The OA is conducting an audit to evaluate Ex-Im Bank’s policies and procedures for the
     Government Purchase Card Program. The specific audit objectives are to determine whether
     Ex-Im Bank’s policies and procedures comply with federal regulations and if controls are
     adequate to ensure compliance with its policies and procedures.

     Audit work commenced in January 2012. The OIG anticipates issuing the audit report in June
     2012.




     A u di t F ol low -U p
     Recommended actions remain open on one audit reported in the previous Semiannual
     Report.


     Working Capit al Guarantee Delegated Authorit y
     Program (OIG-AR-11-04, July 08, 2011)
     http://www.exim.gov/oig/documents/WCGDA%20final%20report%20110708.pdf


     Of the three recommendations, management reported that it had completed action on
     two recommendations and plans to complete action on the remaining recommendation by
     October 1, 2012.

     The remaining open recommendation is to maintain vital information to evaluate program
     performance.




                         Semiannual Report to Congress
Page 28                  October 1, 2011 through March 31, 2012
    OFFICE OF INSPEC TIONS
         AND EVALUATIONS




             Office of Inspector General
Export - Import Bank of the United States   Page 29
                                             S u mm a ry of I nspect ions
                                             & E va luat ions A ct i v i t y


The Office of Inspections and Evaluations (OIE) conducts objective and independent
inspections and evaluations of Ex-Im Bank transactions, programs, and operations. The
OIE reviews and evaluates Ex-Im Bank projects, transactions, policies and procedures, and
develops recommendations for improving program performance. Furthermore, OIE refers
irregularities and other suspicious conduct detected during inspections or evaluations to
the Office of Investigations for investigative consideration.

OIE completed one draft inspection report and one evaluation report during this reporting
period.

      •	 OIE completed a draft inspection report of a $39 million failed transaction to
         Darussafaka – a Turkish, non-government association. In December, 2003, Ex-Im
         Bank approved a long-term loan guarantee to Darussafaka. The guaranteed lender
         was Deutsche Bank. Proceeds of the loan were to support the sale of U.S. goods
         and services for the construction of a luxury retirement community in Urla and an
         auditorium in Istanbul (both in Turkey). The draft inspection report was referred
         to the OI for further investigation.
      •	 OIE completed a policy evaluation report on Ex-Im Bank performance metrics,
         benchmarking best practices in the Export Credit Agency (ECA) sector through
         a survey of other ECAs. In general, this report found that Ex-Im Bank lacks
         a systematic approach to soliciting and measuring customer feedback on its
         performance and has not published comprehensive performance objectives
         to measure progress as required by the GPRA of 1993. The OIE made eight
         recommendations to improve Ex-Im Bank’s operational efficiency and customer
         service to bring Ex-Im Bank in line with ECA best practices.
      •	 Results of ECA survey were presented at the Berne Union Conference in October,
         2011. In addition, the OIE summarized the findings in an article submitted to
         The Journal of Public Inquiry, entitled, “Doing More with Less: How Export Credit
         Agencies are Using Performance Metrics to Improve Customer Service.”
      •	 To develop best practices that Ex-Im Bank OIG can use as criteria for its
         evaluations, the OIE conducted numerous meetings with representatives of federal
         agencies with credit programs, other ECAs, and multilateral financial institutions.
         The OIE also served as the Ex-Im’s OIG representative to the CIGIE subcommittee
         on training and professional development and attended several seminars.




                         Office of Inspector General
            Export - Import Bank of the United States                                        Page 31
     R e ports I s su e d
     Report on Performance Metrics for Operational Eff iciency,
     Phase One (OIG-INS-12-01, March 27, 2012)
     http://www.exim.gov/oig/documents/Final%20Report%20120327.pdf


     The OIE conducted an evaluation of Ex‐Im Bank’s performance metric policies, with
     a particular focus on transaction response time and the measurement of customer
     satisfaction. Performance metrics allow management to track progress toward its objectives
     in a transparent manner. In addition, they provide insightful data that can be utilized for
     a variety of purposes: to inform resource alignment, highlight potential problems and take
     corrective action, develop strategy, and to incentivize performance.

     The OIE conducted this evaluation because Ex‐Im Bank’s accelerated growth during the past
     four years resulted in the growing perception among certain stakeholders that transactions
     may be taking longer to process and approve. In addition, the OIG is interested in
     benchmarking Ex‐Im Bank’s performance against ECA best practices related to operational
     efficiency and customer service.

     The evaluation consists of two phases. Phase One entails a review of Ex‐Im Bank’s metrics
     for operational efficiency and a comparison of those metrics with other practices based on
     an OIG survey of twelve ECAs. Phase Two consists of an Ex‐Im Bank customer satisfaction
     survey to be conducted by the OIG commencing in May, 2012. The customer survey will
     provide valuable feedback on customer priorities and Ex-Im Bank’s perceived performance.

     During this Phase One evaluation, we found that Ex‐Im Bank lacks a systematic approach
     to soliciting and measuring customer feedback on its performance and the overall level of
     customer satisfaction. Indeed, Ex‐Im Bank has not conducted a comprehensive customer
     survey since 2004. Soliciting customer feedback in a timely and systematic manner provides
     valuable insight as to customer priorities, perceived performance, areas for improvement,
     and informs future resource allocation.

     Our ECA survey shows that other ECAs are proactive and survey their clients on a regular
     and systematic basis. President Obama has recently emphasized such customer service
     focus by issuing Executive Order 13571, which requires federal agencies (and requests
     independent agencies) to develop customer service plans and standards that implement best
     practices from the private sector.

     We also found that Ex‐Im Bank has not published comprehensive performance objectives,
     standards for acceptable performance, and metrics to measure progress as required by
     the GPRA of 1993. Our survey shows that other ECAs have implemented and published
     agency‐wide performance metrics that address both quantitative and qualitative factors. In




                          Semiannual Report to Congress
Page 32                   October 1, 2011 through March 31, 2012
addition, we found that Ex‐Im Bank currently measures its operating efficiency in largely
quantitative terms – citing the volume of exports financed, number of jobs supported, and
revenues per employee ‒ but does not address important qualitative issues such as the level
of customer satisfaction.

Finally, we found that, although Ex‐Im Bank has made substantial progress in improving
transaction responses within the Small Business Group and short‑term products, greater
focus should be placed on the tracking and management of the transaction response times in
the long‐term credit programs. Although the preponderant share of Ex‐Im Bank customers
reside within the short-term credit programs and Small Business Group, long‐term credit
programs account for over eighty percent of Ex‐Im Bank’s total outstanding portfolio.

The OIE made several recommendations to improve Ex-Im Bank’s operational efficiency
and customer service to bring Ex-Im Bank in line with ECA best practices. In general, we
recommend that Ex-Im Bank develop a systematic approach to defining and measuring
customer satisfaction, such as an annual customer survey and a customer service plan, and
participate in dialogue with other ECAs on customer service best practices. In addition,
we recommend that Ex-Im Bank develop, implement, and publicize consistent performance
standards and metrics throughout the agency and actively monitor performance.

We also recommend that Ex-Im Bank management implement a balanced score card
approach and incorporate both quantitative and qualitative metrics. Finally, we recommend
that Ex-Im Bank solicit customer input on its operational performance, revisit its metrics
and customer service levels to reflect customer expectations, and implement appropriate
response targets for long-term credits. Management concurred with our recommendations.




         O ngoi ng I nspect ions & E va luat ions
                                           Ex-Im Bank Customer Sur vey Evaluation
This evaluation addresses customer satisfaction and complements the above survey on
ECA performance metrics. The OIE is working with an independent contractor to conduct
a survey of Ex-Im Bank’s exporting clients. The survey’s objective is to identify customers’
perceptions of Ex-Im Bank’s services and service delivery quality, satisfaction drivers, and
potential service improvements. Results of the survey will be analyzed and reported to
Ex-Im Bank management during the next reporting period.


               Review of Loss Reser ve Policies and Risk Mitigation Practices
This evaluation addresses the loss reserve and portfolio risk mitigation practices of Ex-Im
Bank. The need for a comprehensive review of reserve allocation policies and risk mitigation




                          Office of Inspector General
             Export - Import Bank of the United States                                  Page 33
     practices is driven in large part by Ex-Im Bank’s significant asset growth and the challenging
     economic environment as well as changes in the composition of its product portfolio.

     The objectives of this evaluation are to (1) review Ex-Im Bank’s reserve allocation policies
     and practices; methodologies, data, and processes used to determine loss factors and
     (2) identify portfolio risk mitigation and reserve allocation best practices. The evaluation
     will also benchmark Ex-Im Bank’s policies against practices of other ECAs, multilateral
     financial institutions, and six U.S. federal agencies with credit programs. The second phase
     of this evaluation will review potential portfolio risk mitigation techniques available to
     Ex-Im Bank.




     I nspect ions & E va luat ions F ol low -U p
     Beginning with this reporting period, we are reporting on open suggestions for improvement
     resulting from OIG Inspections and Evaluations.


     Evaluation Report Relating to Economic Impact
     Procedures. OIG-EV-10-3, September 17, 2010
     http://exim.gov/oig/documents/EIB_Report_Final_Complete_Web.pdf


     The economic impact procedures enacted by Ex-Im Bank have been the subject of
     Congressional scrutiny and public interest. Both the OIG and the GAO  1 have identified
     opportunities for improvement in Ex-Im Bank’s economic impact procedures. The reviews
     identified ways in which the procedures can be revised to increase transparency, make the
     process more manageable for the range of participants involved, and address the accuracy
     of the methodology used by Ex-Im Bank. The OIG report also explicitly addressed steps to
     better implement the intent of Congress in the economic impact process.

     The OIG and GAO met with Ex-Im Bank management in August 2, 2012 to discuss the GAO
     and OIG reports and the recommendations and suggestions. Ex-Im Bank management stated
     that they had begun a process to review its economic impact procedures. As of the end of the
     reporting period, the OIG’s suggestions for improvement in Ex-Im Bank’s economic impact
     procedures remain open and unimplemented.




      1	   See GAO, Export-Import Bank: Improvements Needed in Assessment of Economic Impact, GAO-07-
           1071, September 12, 2007. This report is available at http://www.gao.gov/new.items/d071071.pdf.




                            Semiannual Report to Congress
Page 34                     October 1, 2011 through March 31, 2012
OIG Suggestions
  A. To improve procedures and reports

     A.1. The Planning and Policy Group (PPG) economic impact reports should present the
     available quantitative and qualitative information obtained by the PPG staff that is
     material and relevant to the determination of economic impact in a concise balancing
     format that addresses each of the elements of economic impact contemplated by the
     Charter and which will support the Board’s decisional process under Section 2(e)(3) of
     the Charter.

     A.2. Economic impact reports, supplemented by the Bank’s publicly available
     Economic Impact Procedures, should be written to reasonably inform the reader
     of the limitations and qualifications of the data, assumptions, estimates, methods
     and analysis relied upon by the PPG staff and the sensitivity of the conclusions
     expressed by the PPG staff to possible changes in assumptions or estimates that can
     be reasonably anticipated. The PPG staff should consider guidance provided by OMB
     in developing specifications for its analysis and reports to the Board.

     A.3. Reliance on trade flow analysis or any other quantitative methods used by the
     PPG staff that effectively decide economic impact cases should be made subject to
     Board approval and subsequent periodic reaffirmation.

  B. To develop improved criteria to guide the Board and Staff

     B.1. While the data supporting trade flow analysis and the conclusions that may
     be drawn from that data and analysis have relevance to the Board’s consideration
     and determination of economic impact cases, trade flow analysis should not be
     the sole or primary criterion for deciding economic impact cases addressed in the
     economic impact reports prepared by PPG and it should not be determinative of the
     recommendation of PPG, or the Board’s decision, in economic impact cases.

     B.2. The PPG staff should develop additional criteria for analysis of economic impact
     that are consistent with Ex-Im Bank’s Charter and Congressional intent to assist the
     Board in deciding economic impact cases. These criteria should focus on the sort of
     macroeconomic trends that were characteristic of the U.S. industries that were cited
     as experiencing substantial economic injury at the hands of foreign competitors in
     Congressional hearings preceding the enactment of the current economic impact
     requirements expressed in Section 2(e) of the Bank’s Charter.

     B.3 The Bank’s Economic Impact Procedures should provide for a periodic backward
     looking empirical review to determine whether it appears that approved transactions
     have in fact caused or contributed to any substantial injury to U.S. producers of an
     exportable good or related employment under the criteria relied upon by the PPG




                        Office of Inspector General
           Export - Import Bank of the United States                                 Page 35
             staff and the Board, and whether any projected benefits to the U.S. economy and
             employment of approving, or disapproving, specific transactions were in fact realized.

             B.4. In view of the suggestions above in A.1 through B.2, the PPG staff should
             reevaluate the “sensitive commercial sectors list” promulgated by Ex-Im Bank
             pursuant to Section 2(e)(5) of the Charter. In particular, it is suggested that Ex-Im
             Bank further refine or omit reference to “Products associated with projects where a
             significant portion of the output directly produced by the project is destined for the
             U.S. market and will compete directly with U.S. production,” which is based on “likely
             net negative trade flow implication.”

          In addition, the Board should be consulted before the sensitive sector list is published
          to confirm that they are in general accord with it in order to avoid the Bank’s President
          effectively usurping the Board’s final authority to decide economic impact cases.

          C. To improve transparency — Ex-Im Bank should advance the transparency of its
          economic impact policy and determinations by:

             C.1. Revising the Economic Impact Procedures to include more information about the
             PPG methodology and publishing the expanded description on Ex-Im Bank’s web site.

             C.2. Revising Ex-Im Bank’s internal procedures to more fully and accurately describe
             the PPG methodology in preparing economic impact reports.

             C.3. Making economic impact reports publicly available after redacting them, or
             delaying their release, to protect sensitive business confidential information of the
             transaction proponents.


     Review of the Export-Import Bank Nigeria Banking
     Facilit y ( June 7, 2011, OIG-SR-11-01)
     http://exim.gov/oig/documents/TransmittalandReport_110607.pdf


     Ex-Im Bank’s Nigerian Banking Facility (NBF) expedites the processing of short, medium,
     and long-term Ex-Im Bank financing for the purchase of U.S. goods and services by Nigerian
     buyers. Due to corruption allegations against managers of two NBF participating banks,
     the OIG conducted a review to determine whether (1) potential exposure to fraud existed,
     (2) policies and procedures to establish credit facilities were in place and properly
     implemented, and (3) requirements were in place to require participating banks to report
     any corruption investigations to Ex-Im Bank.

     The review found that transactions conducted by the two investigated banks and
     underwritten by Ex-Im Bank under the NBF did not demonstrate any indicia of fraud.




                            Semiannual Report to Congress
Page 36                     October 1, 2011 through March 31, 2012
However, we found that Ex-Im Bank lacked policies and procedures when it established the
Special Delegation Authority (SDA). In addition, the NBF and participating banks were not
required to provide certifications or representations to Ex-Im Bank of compliance with U.S.
or Nigerian laws including anti-corruption certifications or statements.

We made three suggestions to Ex-Im Bank management:

  1.	   Develop policies and procedures clearly defining when an SDA is beneficial to
        American exporters and to achieving Ex-Im Bank’s mission.

  2.	 Develop policies and procedures describing how credit facilities would be established
      and describing the extent of credit analysis and reputation checks to be conducted.

  3.	   Establish an anti-corruption hotline where allegations of corruption practices can
        be reported to Ex-Im Bank by project participants or others with information about
        possible corruption practices in any country.

As of the end of the reporting period, Ex-Im Bank management had prepared draft
policies and procedures to be included in Ex-Im Bank’s Credit Manual addressing the first
two recommendations and thus remain open until implemented. Regarding the third
recommendation, we have not received any response. We note, however, that Ex-Im Bank
management may implement the third recommendation by advising project participants
during the transaction approval process of the OIG’s hotline as a mechanism for reporting
corruption.




                           Office of Inspector General
              Export - Import Bank of the United States                                 Page 37
OFFICE OF INVESTIGATIONS




              Office of Inspector General
 Export - Import Bank of the United States   Page 39
                                                                                    S u mm a ry
                                                                                          of
                                                                     A c c om pl ish m e n ts


The Office of Investigations (OI) conducts and coordinates investigations relating to alleged
or suspected violations of laws, rules, or regulations occurring in Ex-Im Bank programs
and operations. The subjects of OI investigations can be program participants, contractors,
Ex-Im Bank management or employees. Special Agents in OI are Federal Criminal
Investigators (job series 1811). Investigations that uncover violations fo Federal law, rules,
or regulations may result in criminal or civil prosecution, and administrative sanctions.

During this reporting period, OI achieved several milestones and accomplishments towards
meeting mission objectives of investigating and preventing trade finance and export credit
fraud impacting Ex-Im Bank. These actions include:

       •	 Obtained seven criminal judgments resulting in 100 months imprisonment,
          252 months’ probation, and $25,183,157 in criminal restitution, forfeiture, and
          special assessments. One defendant was acquittal by trial.
       •	 Obtained 14 administrative actions 1 stemming from referrals of active
          investigative information resulting in $3,203,066 in payments to Ex-Im Bank,
          two voluntary exclusions, 360 months of debarment and one month of suspension.
       •	 Obtained ten criminal informations and indictments against subjects of ongoing
          investigations.
       •	 Obtained two arrest warrants and made two arrests based on warrants obtained
          by Ex-Im OIG Special Agents.
       •	 Entered eight plea agreements in court by subjects pursuant to ongoing
          investigative matters.
       •	 Provided 28 reports of investigative information to Ex-Im Bank Office of General
          Counsel concerning potential fraud and funds at risk to support enhanced due
          diligence efforts in approving, processing, and monitoring export credit loan
          guarantees and insurance policies.
       •	 Referred two investigative matters to the Department of Justice for prosecutive
          decision.




 1	   Administrative actions are responses by Ex-Im Bank to stop transactions, cancel policies, or protect
      funds at risk based upon investigative findings.




                            Office of Inspector General
               Export - Import Bank of the United States                                              Page 41
     S u mm a ry             of      I n v e st ig at ions
     The OI evaluates all reports of possible fraud or illegality affecting Ex-Im Bank programs
     and activities. Such reports are received from a variety of sources – Ex-Im Bank employees,
     Ex-Im Bank Office of General Counsel, participants in Ex-Im Bank transactions, other
     government agencies, and the Ex-Im Bank OIG Hotline. Evaluations that identify reasonable
     indications of possible fraud or illegality result in an investigation. These investigations are
     summarized in the table below.


      Summary of Investigative Activity                 Investigations          No. of         Amount Of
      During Period                                         Totals             Claims*          Claims

      Investigations open as of October 1, 2011                 35                530          $347,332,596

      Opened during period                                      10                 4              $1,267,429

      Closed during period                                     (7)               (18)          ($10,046,849)

      Investigations open as of March 31, 2012                  38                516          $338,553,176


      *   The number and amount of claims paid subject to investigation. Not all investigations involve claims
          paid by Ex-Im Bank. Not all claims opened or closed in the period are related to cases opened or closed
          in the period, but may be related to other active investigations. The referral of a claim to the OIG
          for investigation does not establish the existence of fraud and not all claims included in a case under
          investigation are necessarily fraudulent until proven so by evidence developed in the investigation.
          The number of claims may vary during the course of an investigation as facts and findings develop.




                             Semiannual Report to Congress
Page 42                      October 1, 2011 through March 31, 2012
              S u mm a ry             of      I n v e st ig at i v e R e su lt s
The Office of Investigations obtained the following actions during this reporting period.


                                                                     JOINT
 DESCRIPTION                                         OIG                                  TOTAL
                                                                  ACTIVITIES*
 Matters Referred to the Department of
                                                      1                  1                   2
 Justice

 Arrest Warrants Obtained                             1                  1                   2

 Arrests Made                                         1                  1                   2

 Criminal Indictments, Informations,
                                                      2                  8                   10
 Complaints

 Pleas Entered                                        2                  6                   8

 Criminal Judgments                                   2                  5                   7

 Prison Time (months)                                16                  84                 100

 Probation (months)                                  72                 180                 252

 Court Ordered Criminal Fines,
                                                 $1,611,762        $23,571,395         $25,183,157
 Restitution, and Forfeiture

 Administrative Actions**                             6                  8                   14

 Administrative Cost Savings and
                                                  $265,000          $2,938,066          $3,203,066
 Repayments


 * Joint investigations with other law enforcement agencies.
 ** Administrative actions are responses by Ex-Im Bank to stop transactions, cancel policies, or protect
    funds at risk based upon investigative findings.




                           Office of Inspector General
              Export - Import Bank of the United States                                           Page 43
     I n v e st ig at ions
     Loan Guarantee, Export Credit Insurance, Direct Loans
     Two of Ex-Im Bank’s key programs – the loan guarantee program and the export credit
     insurance program ‒ have been particularly susceptible to fraud schemes by foreign
     borrowers, U.S. based exporters, and other transaction participants, including deal brokers
     commonly referred to as “agents” or “finders” who assist in arranging the transactions
     and shipments. These two programs account for the majority of investigations currently
     underway. Each program offers different features to Ex-Im Bank customers, but criminal
     activity exploits certain processes within the programs in order to induce Ex-Im Bank to
     approve fraudulent loan guarantees or insurance coverage. Investigations also occur in
     other areas, such as Direct Loans, or in matters having to do with the integrity of Ex-Im Bank
     programs and processes.


                                    Loan Guarantee Program
            Ex-Im Bank assists exporters by guaranteeing term financing from a commercial
            lender to creditworthy international buyers, both private and public sector, for
            purchases of U.S. goods and services. Ex-Im Bank’s guarantee of a lender’s loan
            to an international buyer is used to finance purchases of U.S. goods and services.
            Criminals have exploited this program by submitting false financial statements of
            foreign borrowers in order to induce Ex-Im Bank to provide its guarantee coverage
            for a loan for which the borrowers might otherwise be ineligible or by submitting
            false documentation to the guaranteed lender and Ex-Im Bank regarding
            the shipment, nature, or quantity of the U.S. goods allegedly being exported.

     Successful investigative efforts within the loan guarantee program during the reporting
     period include the summaries below.


     Texas Resident Sentenced To 24 Months In Prison
     For Scheme To Defraud Ex-Im Bank
     An El Paso, Texas, resident was sentenced on October 20, 2011 to 24 months in prison for his
     role in a scheme to defraud Ex-Im Bank of more than $3.6 million.

     The sentence was announced by Assistant Attorney General Lanny A. Breuer of the Criminal
     Division; U.S. Attorney Robert Pitman of the Western District of Texas; both from the
     Department of Justice (DOJ); Osvaldo L. Gratacós, Inspector General of Ex-Im Bank; Special
     Agent in Charge Manuel Oyola-Torres of Homeland Security Investigations (HSI) in El Paso;
     Special Agent in Charge Rebecca Sparkman of the Internal Revenue Service-Criminal
     Investigation (IRS-CI) in Washington, D.C.; and Inspector in Charge Daniel S. Cortez of the
     U.S. Postal Inspection Service (USPIS) in Washington, D.C.




                          Semiannual Report to Congress
Page 44                   October 1, 2011 through March 31, 2012
Gilberto Baez-Garcia, 35, was also sentenced by Judge Kathleen Cardone in U.S. District
Court in El Paso to five years of supervised release and was ordered to pay $3,614,594 in
restitution and $ 3,614,977 in forfeiture. Baez pleaded guilty on May 11, 2011, to conspiracy
to commit wire and bank fraud, conspiracy to launder money, and bank fraud. Baez admitted
that he participated in a scheme to defraud Ex-Im Bank of more than $3.6 million. Baez most
recently resided in El Paso. He was arrested on June 4, 2010.

According to court documents, Baez was the co-owner of Valcomar, Inc., an export company
located in El Paso that purported to be in the business of exporting U.S. manufactured goods
to Mexico. During his plea hearing, Baez admitted that he and another El Paso exporter
created false documents so Baez could obtain a fraudulent Ex-Im Bank loan, which resulted
in a $1,016,126 loss to the government. Baez also admitted that he and his co-conspirators
assisted others to obtain fraudulent Ex-Im Bank loans, which resulted in more than
$2 million in losses to the government. According to court records, all of Ex-Im Bank loans
involving Baez were fraudulent and Baez and others stole the loan proceeds by transferring
funds to Mexico and elsewhere. As a result, the loans went into default and caused Ex-Im
Bank to pay claims losses to the lending banks in the amount of $3,614,594.


                                Ex-Im Bank OIG Announces Unsealing of Federal
                                Indictments and Seeks Information on Fugitives
Ex-Im Bank OIG announced on November 21, 2011 that, pursuant to an ongoing joint
investigation, several federal indictments were unsealed in El Paso, TX. As a result of the
unsealing, investigators are currently attempting to locate and arrest 10 fugitives charged
as a result of the joint investigation related to export financing fraud. One fugitive was
provisionally arrested and is awaiting extradition from Mexico.

OIG investigations have found that the fugitives and several other defendants conspired to
defraud Ex-Im Bank of millions of dollars through various loan schemes to finance fictitious
and fraudulent exports of purported U.S. manufactured goods into Mexico. As a result
of their actions, the loans defaulted, resulting in over $22 million in claims paid by Ex-Im
Bank to various lending banks. The defendants in each of the cases have been charged
with a variety of federal criminal violations to include conspiracy, wire fraud, and money
laundering. Since 2010, the cases have resulted in 24 criminal indictments, four criminal
informations, 21 arrest warrants, 12 arrests, and five convictions resulting in prison
sentences and over $4.6 million in criminal restitution and $5.6 million in court ordered
forfeiture.

Federal agents are currently seeking the location and arrest of 10 fugitives charged in the
unsealed federal indictments and who are believed to be residing in or near Ciudad Juárez,
Chihuahua, Mexico. These fugitives are:

      űű Sergio Acosta-Camacho, a Mexican citizen and former owner of AML Construction
      űű Pedro Ruvalcaba-Placencia, a Mexican citizen and owner of a business, Delicas Nuez,
         in Ciudad Juarez




                          Office of Inspector General
             Export - Import Bank of the United States                                 Page 45
           űű Alfredo Rodela-Campos, a Mexican citizen residing in Chihuahua
           űű Jorge Martinez-Joo, a Mexican citizen and former owner of El Paso-based exporter,
              El Paso Valcomar Inc.
           űű Adrian Rascon-Chavez and his wife Genoveva Fontes de Rascon, both United States
              citizens and former owners of Juárez-based clinic Centro Oncológico de Norte SA
           űű Maria de Jesús Ortiz-Saldivar, a Mexican citizen and the former accountant of
              Genoveva Fontes de Rascon
           űű Jorge Valdez-Cota and his wife, Veronica Iglesias-Lucero, both Mexican citizens and
              owners of a metal fabrication shop in Ciudad Juárez
           űű Gilberto Ruiz-González, a Mexican citizen, resident of Ciudad Juárez, and owner of
              Passage Supply

     Ex-Im Bank OIG, Immigration Customs Enforcement-Homeland Security Investigations (HSI),
     the U.S. Postal Inspection Service, and Internal Revenue Service-Criminal Investigations in
     Washington, D.C. are conducting this joint investigation. HSI Special Agents in El Paso and
     Mexico are assisting Ex-Im Bank OIG agents to locate the fugitives through liaison efforts
     with Mexican law enforcement authorities.

     Through their fraudulent schemes of fictitious exports of U.S. goods to Mexico, these
     individuals caused significant losses and undermined Ex-Im Bank’s mission of helping
     U.S. companies create or maintain U.S. jobs by promoting exports.

     Individuals with information concerning the location of the fugitives in question may call
     the Ex-Im Bank OIG Hotline at 1-888-OIG-EXIM (1-888-644-3946) or HSI Communications at
     1-407-975-1820 or 1-800- BE-ALERT (1-800-232-5378).


     Five Persons Charged and Another Pleads Guilt y
     in Schemes to Defraud Ex-Im Bank
     During this reporting period, five defendants involved in a related investigation were
     charged by criminal indictment for their role in various counts of wire fraud and money
     laundering conspiracies. In another investigation, a defendant pleaded guilty to conspiracy
     to commit wire fraud and money laundering. These criminal charges and guilty pleas
     highlight successful investigative efforts to address loan guarantee fraud in Mexico, South
     America, and elsewhere. As of the end of this reporting period, the defendants are awaiting
     further judicial action in federal court and these investigations concerning $12 million in
     claims against Ex-Im Bank are continuing.


     Defendant Sentenced For His Role in Ex-Im Bank Fraud Scheme
     During this period, one defendant in an ongoing investigation was sentenced in U.S. District
     Court for his role with others in a scheme to defraud Ex-Im Bank. The defendant was
     sentenced to six months in prison, 24 months of supervised release, and ordered to pay




                          Semiannual Report to Congress
Page 46                   October 1, 2011 through March 31, 2012
restitution in the amount of $116,119 and forfeiture in the amount of $17,500. This
sentencing was part of a broader investigative effort to examine approximately $1.2 million
worth of fraudulent and fictitious exports into Mexico. This investigation is ongoing and
continues to pursue other culpable parties involved in the scheme.


                          Export Credit Insurance Program
       This program offers protection in the form of several different insurance policy
       types to U.S. exporters and their lenders against non-payment by foreign buyers
       due to commercial and political risks. Export credit insurance allows exporters
       to increase export sales by limiting international repayment risk, offering
       credit to international buyers, and enabling exporters to access working capital
       funds. One fraudulent scheme to exploit this program involves the falsification
       of shipping records to convince Ex-Im Bank that the described goods have been
       shipped when in fact they have not.

Successful investigative efforts within the export credit insurance program during the
reporting period include the reports noted below.:


         Former Wells Fargo Employee Sentenced For Accepting A Bribe In
       Exchange For Helping To Approve A Loan Guaranteed By Ex-Im Bank
On January 30, 2012, El Paso resident Gerardo Uribe, 45, a former employee of Wells Fargo
Bank, was sentenced to eight months incarceration. The Honorable U.S. District Judge Fred
Biery in U.S. District Court for the Western District of Texas, San Antonio, TX sentenced
Uribe for his role in accepting a bribe in exchange for helping to approve a loan. Uribe had
previously pled guilty on October 6, 2011 to a criminal information that charged him with
bank bribery and engaging in monetary transactions in property derived from a specified
unlawful activity.

In addition to the above sentence, Uribe was ordered to pay $50,000 in restitution and
serve 60 months of supervised release. According to court records and plea documents,
throughout 2006 and 2007, Uribe worked at the El Paso branch of Wells Fargo Bank
underwriting business loans, some of which were guaranteed by Ex-Im Bank. Around
January 2006, a Mexican business owner submitted a loan application to Wells Fargo
Bank requesting $3,462,910 to purchase business machine equipment from a company
in the United States. According to plea documents, the Mexican business owner offered
to pay $50,000 to Uribe as a reward or gratuity for facilitating the loan’s approval. Uribe
accepted the bribe in connection with his approval of the loan, which was approved in
August 2006 with a guarantee from Ex-Im Bank. Thereafter, loan proceeds in the amount
of approximately $3.2 million were sent to a Texas equipment company, which subsequently
transferred the money to the Mexican business owner. The Mexican business owner
subsequently defaulted after two installment payments and, in September 2007, Ex-Im Bank
paid a claim to Wells Fargo Bank of approximately $2.9 million.




                          Office of Inspector General
             Export - Import Bank of the United States                                    Page 47
     According to court records, San Antonio business owner, Andrew Parker, President of
     San Antonio Trade Group, Inc., served as the broker and exporter of record for this loan
     to facilitate the exporting of the equipment to Mexico. Through San Antonio Trade Group,
     Parker devised and executed a massive scheme to defraud the U.S. through fraudulent
     loans guaranteed by Ex-Im Bank. In October 2008, Parker pled guilty to various charges
     and was sentenced to 117 months in prison and ordered to pay approximately $10 million,
     according to a Department of Justice Press Release. (http://www.justice.gov/usao/txw/press_
     releases/2008/Parker_sent.pdf ) .


     Miami Business Owner Sentenced For His Role In Defrauding Ex-Im Bank
     On March 27, 2012, Miami resident and businessman Rafael E. Cuarezma, 44, was sentenced
     to 10 months incarceration (five months prison, five months home incarceration). In
     addition, Cuarezma was ordered to pay $355,046.08 in restitution and serve 36 months of
     supervised release. The Honorable U.S. District Judge William P. Dimitrouleas, Southern
     District of Florida, Fort Lauderdale Division, sentenced Cuarezma for his role in defrauding
     Ex-Im Bank. Cuarezma had previously pled guilty on January 10, 2012 to criminal charges of
     two counts of conspiracy to commit wire fraud and wire fraud.

     According to court records, Cuarezma, a naturalized U.S. citizen born in Nicaragua, owned
     and worked as the general manager of an electronics business in Miami known as LFM
     International Corporation (LFM) that exported electronic equipment to buyers in foreign
     countries. In March 2008 and October 2009, Ex-Im Bank approved two insurance policies
     for Cuarezma and LFM to cover the risk of non-payment by buyers in South America of
     U.S. manufactured electronics equipment. Under an “Enhanced Assignment of Policy
     Proceeds”, Cuarezma and LFM then assigned the proceeds of the insurance policies to a
     lending bank in Miami to obtain financing for the purchase and export of these goods. Under
     an Enhanced Assignment of the insurance proceeds, Ex-Im Bank agrees to pay claims to
     the assignee. Therefore, the insurance policies covered the lender in the event of a default
     related to the loan payments by Cuarezma and LFM.

     According to court records, Cuarezma entered into a conspiracy with others to defraud Ex-Im
     Bank and unlawfully enrich themselves by submitting false and fraudulent information to
     Ex-Im Bank through the lender to obtain money from the loan and misappropriate the loan
     proceeds for their own use and benefit. According to the court records, Cuarezma admitted
     that he and others prepared and caused to be prepared false loan applications, false financial
     statements, false shipping documents, and false invoices representing that Cuarezma,
     through LFM, had sold and shipped approximately $1,118,761 worth of goods manufactured
     in the United States to South American buyers. In fact, according to court records, Cuarezma
     had not sold or shipped any of the goods. Cuarezma defaulted on his loan causing Ex-Im Bank
     to pay a claim to the lender on March 10, 2010 in the amount of $372,808.




                          Semiannual Report to Congress
Page 48                   October 1, 2011 through March 31, 2012
               Florida Resident Sentenced In Scheme To Defraud Ex-Im Bank
On January 17, 2012, Miami resident Mario Francisco Mimbella was sentenced to six months
in prison for his role in a scheme to defraud Ex-Im Bank of $496,869. The sentencing caps
ongoing investigative efforts by Ex-Im OIG to investigate fraudulent loans and exports to
borrowers in South America and elsewhere.

Mimbella, 61, was sentenced by Judge Amy B. Jackson in U.S. District Court, District of
Columbia, to an additional 36 months of supervised release and was ordered to pay $496,869
in restitution. Mimbella pleaded guilty on July 12, 2011 to a criminal information that
charged him with one count of making a false statement in connection with a scheme to
defraud Ex-Im Bank.

According to court documents, Mimbella was the owner of Mario’s Air, Inc., a Miami‑based air
cargo provider serving light cargo transportation needs primarily between Miami, Florida
and the Bahamas. Mario’s Air was purported to be an exporter of garbage collection trucks
purchased with $2.3 million in loans to Peruvian borrowers from a U.S. lending bank. Those
loans were guaranteed by Ex-Im Bank. Court records reflect that the intended purpose
of the loans to the Peruvian borrowers was supposed to be for the purchase and export of
U.S. manufactured garbage trucks. According to court records, Mimbella submitted false
bills of lading and other export records purporting to show that loan proceeds had been
used to purchase and ship U.S. manufactured trucks. However, in one of the loans, Mimbella
instead wired loan proceeds directly to a Peruvian borrower who used the money to
purchase garbage trucks made in Germany rather than the United States. Subsequently, one
of the fraudulent loans defaulted and Ex-Im Bank paid a claim in the amount of $502,169 to
the U.S. lending bank in accordance with the terms of the guarantee.


                           Owner of Miami Company Sentenced to 46 Months in
                                     Prison for Scheme to Defraud Ex-Im Bank
The owner of an export company in Miami was sentenced on November 1, 2011 to 46 months
in prison for his role in a scheme to defraud Ex-Im Bank of approximately $24 million,
announced Department of Justice Assistant Attorney General Lanny A. Breuer of the Criminal
Division; Osvaldo L. Gratacós, Inspector General of Ex-Im Bank; Jeannine A. Hammett, Acting
Special Agent in Charge of the Internal Revenue Service-Criminal Investigation (IRS-CI) in
Washington, D.C.; and Henry Gutierrez, Inspector in Charge of the U.S. Postal Inspection
Service (USPIS) in Miami.

Guillermo O. Mondino, 48, was sentenced by Judge Ricardo M. Urbina in U.S. District Court
in Washington, D.C. Mondino pleaded guilty on June 23, 2010, to one count of conspiracy
to commit mail fraud and one count of money laundering in connection with a scheme to
defraud Ex-Im Bank of approximately $24 million. In addition to his prison term, Mondino
was sentenced to three years of supervised release and was ordered to pay $13.3 million in
restitution and $2.7 million in forfeiture.




                          Office of Inspector General
             Export - Import Bank of the United States                                Page 49
     According to court documents, Mondino was the owner of Texon Inc., an export company
     located in Miami, which purported to export various types of equipment to South and Central
     America buyers. Mondino admitted that he assisted numerous foreign buyers to obtain
     fraudulent loans that were insured by Ex-Im Bank. According to court records, Mondino and
     others misappropriated the loan proceeds for their own use and benefit. From 2003 through
     2009, Mondino, through Texon, assisted foreign buyers to create fraudulent loan applications,
     financial statements, purchase orders, invoices, and bills of lading to falsely represent to
     various lending banks and Ex-Im Bank the purchase and export of U.S. goods to buyers in
     South and Central America. After receiving more than $24 million in Ex-Im Bank insured
     loan proceeds, Mondino diverted about $6.4 million of the loan proceeds directly to the
     foreign buyers.

     According to court records, all of the loans involving Mondino were fraudulent. As a result
     of the fraud, the loans went into default, causing Ex-Im Bank to pay claims to the lending
     banks on $14.1 million of loans. The case was investigated by Ex-Im Bank OIG, IRS-CI in
     Washington, D.C., and USPIS in Miami, FL. Agents were also assisted by South Miami area
     representatives of the Federal Maritime Commission in the analysis of complex maritime
     shipping documents.


     Former Bank Employee Pleads Guilt y to Stealing over $223,000
     Rosamaria T. Somarriba, age 67, of Baltimore, pleaded guilty on January 30, 2012 to mail
     fraud in connection with a scheme to defraud her employer’s bank customer and Ex-Im
     Bank. The guilty plea was announced by United States Attorney for the District of Maryland
     Rod J. Rosenstein and Special Agent in Charge Richard A. McFeely of the Federal Bureau of
     Investigation.

     According to her plea agreement, Somarriba was employed within the International Trade
     Finance Division of M&T Bank in Baltimore, Maryland. Somarriba began working at the
     bank in 1985 and, at the time of her termination in early 2011, had attained the position of
     assistant vice president/relationship liaison. In this capacity, Somarriba was able to access
     bank customer accounts and transfer funds between them. Ex-Im Bank provided loan
     guarantees and insurance coverage to M&T Bank.

     In March 2011, after Somarriba had been terminated by M&T Bank for reasons unrelated
     to this case, the bank uncovered suspicious activity within the account of one of its bank
     customers, Company A. Company A had defaulted on its Ex-Im Bank-guaranteed loan in
     October 2007; as a result, M&T Bank had filed a claim with Ex-Im Bank, which agreed to
     “cover” Company A’s owed payments and to pay M&T Bank according to the original terms
     of Company A’s loan. However, the payments Ex-Im Bank had paid M&T Bank on behalf of
     Company A exceeded the amounts required to continue funding the loan. As a result, excess
     funds accumulated within Company A’s account.

     Further investigation revealed that between July 2006 and May 2010, Somarriba, who
     knew of the accumulation of these excess funds, made at least four unauthorized transfers




                           Semiannual Report to Congress
Page 50                    October 1, 2011 through March 31, 2012
out of Company A’s account, representing at least $169,582 originally belonging to Ex-Im
Bank, into another bank customer’s account held by Company B. Somarriba then made over
30 unauthorized debits from Company B’s account amounting to at least $211,072, for her
own benefit. In this way, Somarriba stole at least $169,582 in Ex-Im Bank funds and at least
$41,490 in Company B’s funds. Additionally, Somarriba withdrew $12,390 from Company
B’s account to satisfy her and her husband’s debts owed to the IRS. During the course of the
scheme from at least as early as 2006 through at least February 2011, Somarriba defrauded
Ex-Im Bank and Company B of at least a total of $223,462.

Somarriba faces a maximum sentence of 20 years in prison followed by three years of
supervised release, and a fine of $250,000 or twice the amount of gain or loss. As part of her
plea agreement, Somarriba has agreed to pay restitution of, and to forfeit, at least $223,462.
U.S. District Judge Benson E. Legg scheduled her sentencing for May 31, 2012.

This law enforcement action is part of President Barack Obama’s Financial Fraud
Enforcement Task Force. President Obama established the interagency Financial Fraud
Enforcement Task Force to wage an aggressive, coordinated, and proactive effort to
investigate and prosecute financial crimes. The task force includes representatives from a
broad range of federal agencies, regulatory authorities, inspectors general, and state and
local law enforcement who, working together, bring to bear a powerful array of criminal and
civil enforcement resources. The task force is working to improve efforts across the federal
executive branch, and with state and local partners, to investigate and prosecute significant
financial crimes, ensure just and effective punishment for those who perpetrate financial
crimes, combat discrimination in the lending and financial markets, and recover proceeds for
victims of financial crimes.




                          O t h e r I n v e st ig at i v e R e su lt s
                          Special Agents Work Collaboratively with Ex-Im
                                      Bank to Help Protect Funds at Risk
To the extent permissible and within the confines and limitations of an investigation, OI
Special Agents work collaboratively to share investigative intelligence with the Office of
General Counsel, Credit and Risk Management Division, and Asset Management Division
of Ex-Im Bank to help identify potential and suspected fraudulent activity within Bank
transactions and to protect Bank funds.

During this reporting period, OI communicated with Ex-Im Bank management to enhance
the monitoring of several existing transactions and due diligence reviews of proposed
transactions based on developed investigative leads. We shared active law enforcement
intelligence with Ex-Im Bank on several matters concerning suspected criminal activity by
participants involved in active policies or transactions under review. As an example, OI




                          Office of Inspector General
             Export - Import Bank of the United States                                  Page 51
     coordination with DOJ and Ex-Im Bank helped facilitate 14 administrative actions resulting
     in the direct repayment and collection of outstanding debt by responsible parties in amounts
     totaling $3,203,066.

     In one investigation, law enforcement information was provided to Ex-Im Bank management
     concerning the activities of one subject misusing Ex-Im Bank’s online application process.
     This information resulted in the issuance of a cease and desist letter and the removal of
     internet access capability to Ex-Im Bank systems for the individual.

     In other matters, OI investigative results were presented to the Office of General Counsel
     which pursued suspension and debarment efforts against several parties. As a result, one
     party voluntarily withdrew from participating in Ex-Im Bank transactions and was debarred
     for 10 years. In another investigation, the defendant voluntarily agreed to a 10 year
     exclusion and repaid Ex-Im Bank $240,000. In a third investigation, the defendant was
     suspended for one month and was subsequently debarred for 10 years.

     Additionally during this reporting period, the OI made 28 referrals of investigative
     information to Ex-Im Bank Office of General Counsel concerning potential fraud and funds at
     risk for enhanced due diligence by Ex-Im Bank.

     These efforts are part of the OI objective to expeditiously protect funds at risk concurrent
     with ongoing criminal investigations and to enhance Ex-Im Bank’s existing capabilities
     in monitoring, oversight, and collection efforts involving transactions in which fraud is
     uncovered.


     Investigative Capabilities are Strengthened by Memorandums
     of Understanding & Other Law Enforcement Partnerships
     During this reporting period, the OI further strengthened its investigative capabilities and
     investigative support by entering into several Memorandums of Understanding (MOU) with
     partner organizations. The OIG and the U.S. Marshal Service signed an MOU for operational
     and field support during investigations nationwide and other administrative support related
     to criminal history records checks. In addition, the OIG entered into an MOU with another
     law enforcement organization for the use of criminal forensic laboratory analysis and related
     services. Such support will assist the OIG in furthering criminal investigations where
     document analysis and fingerprint or signature examinations are required. These MOUs
     will help OIG effectively utilize available information and evidence to produce investigative
     results.

     During this reporting period, the OI met with the Office of Investigations of the Small
     Business Administration OIG to discuss export-related programs within the SBA which
     may impact ongoing or future Ex-Im Bank OIG investigations. Efforts were made to
     identify common fraud risk scenarios and discuss joint partnerships in investigations
     where warranted. Further information was shared concerning ways to enhance business




                           Semiannual Report to Congress
Page 52                    October 1, 2011 through March 31, 2012
intelligence to determine if common entities or suspected parties exist by and between the
SBA and Ex-Im Bank. Such efforts were in furtherance of strengthening joint capabilities and
effective investigative efforts.

Also, the OI met with the World Bank Integrity Vice Presidency (INT) to discuss international
investigations, matters of mutual interest, and future efforts impacting World Bank
funded projects intersecting Ex-Im Bank programs and other types of cross-cutting project
finance. The international investigative work of the OIG may be greatly enhanced through a
partnership with INT where logistical support and capabilities can help both organizations
protect funds at risk.


         Outreach - OIG Continues Ef forts to Educate the Export
    Community on Identif ying & Reporting Fraud, Waste, & Abuse
As part of the OIG’s mission to prevent and detect fraudulent activity, efforts have been made
to meet with and educate stakeholders and other law enforcement partners about the various
risks and fraud scenarios most commonly seen in trade finance and export credit fraud cases.

On November 15, 2011, an OI representative lectured at the Inspector General Academy’s
Transition Training Program in Atlanta, Georgia. The program is designed for law
enforcement agents entering the Inspector General community. The attendees consisted of
approximately 50 law enforcement professionals and information was provided concerning
international trade finance fraud and the role and responsibility of Ex-Im Bank OIG.

On November 17, 2011, an OI representative was a guest speaker at the Financial Information
Security Association (FISA) in Miramar, Florida, to discuss Ex-Im Bank OIG and international
trade finance fraud investigations. FISA include members of the banking community,
federal and local law enforcement, and financial crime experts involved in financial fraud
investigation and the protection of financial institution and bank funds. This presentation
discussed common fraud scenarios and efforts by the OIG and partner law enforcement
agencies to protect Ex-Im Bank from international trade finance fraud and related schemes.

Additionally, an OI representative was a guest speaker at the International Consortium on
Governmental Financial Management meeting in Washington, DC, on January 4, 2012 to
discuss Ex-Im Bank OIG and progress made to combat trade finance fraud since the OIG was
staffed in 2007. Attendees included various governmental agency representatives, OIGs,
consulting and accounting firms, and others involved in oversight responsibilities related to
governmental financial management.




                          Office of Inspector General
             Export - Import Bank of the United States                                  Page 53
     Hotline Activity
     The Ex-Im Bank OIG maintains a hotline to receive reports of fraud, waste, and abuse in
     Ex-Im Bank programs and operations. Hotline reports are evaluated by our investigative
     team and, based on the available evidence, may result in the initiation of an investigation,
     referral to other law enforcement authorities having jurisdiction, or referral to management
     for administrative action.

     The OIG received five hotline reports during the reporting period. One was referred for
     investigation, one was referred for audit, two were referred to the OIG Office of Inspections
     and Evaluations, and one was resolved and closed by the hotline.

     Hotline reports can be made by any of the following methods:

           űű phone at 1-888-OIG-EXIM (1-888-644-3946)
           űű email to IGhotline@exim.gov
           űű mail or delivery service to Ex-Im Bank OIG Hotline, Office of Inspector General,
              811 Vermont Ave. NW, Washington DC 20571

     The OIG will not disclose the identity of a person making a report through the hotline without
     their consent unless the Inspector General determines such disclosure is unavoidable during
     the course of an investigation.




                          Semiannual Report to Congress
Page 54                   October 1, 2011 through March 31, 2012
                                                           A ppe n di x A – P e e r
                                                           R e v i e w R e port i ng


This appendix complies with Section 5(a)(14)-(16) of the IG Act of 1978, as amended.


                                                  Peer Review of the Audit Function
Under generally accepted government auditing standards, OIG audit functions must have an
external peer review at least every three years. During this reporting period, the Office of
Audit successfully passed an external peer review for the year ended September 30, 2010.
The review was conducted by the National Endowment for the Arts (NEA) OIG. It found the
system of quality control for the Ex-Im Bank OIG’s Office of Audit to be suitably designed
and to provide Ex-Im Bank OIG with reasonable assurance of performing and reporting in
conformity with applicable professional standards in all material respects. The NEA OIG
issued the rating of “PASS” and made no recommendation. The peer review report may be
found at http://exim.gov/oig/documents/Peer%20Review%20Audit%20120207.pdf.


                                        Peer Review of the Investigation Function
As of July 2011, Ex-Im Bank OIG derives its law enforcement authority from Section 6(e) of
the IG Act of 1978, as amended. As such, the OIG is required to undergo an external peer
review process of our investigative function every three years. The peer review is scheduled
for the summer of 2014.


                                                           Peer Reviews of Other OIGs
The Ex-Im Bank OIG did not conduct a peer review of any other OIG during this reporting
period. It has scheduled a peer review of the audit function of the Consumer Product Safety
Commission OIG for the fall of 2013. In addition, it has scheduled a peer review of the
investigation function of the Office of Personnel Management OIG for the end of 2012.




                          Office of Inspector General
             Export - Import Bank of the United States                                     Page 55
A ppe n di x B – IG A ct P rov isions
R equ i r i ng R e port i ng i n SAR

   CITATION                        REPORTING REQUIREMENTS                                  PAGE

    Section
              Review existing and proposed legislation and regulations                       8
    4(a)(2)
    Section
              A description of significant problems, abuses, and deficiencies              9 - 15
    5(a)(1)
    Section   Recommendations for corrective action with respect to significant            19 - 28
    5(a)(2)   problems, abuses, or deficiencies                                            31 - 37
    Section   Prior significant recommendation on which corrective action has not
                                                                                           None
    5(a)(3)   been completed
    Section
              Matters referred to prosecutive authorities                                    43
    5(a)(4)
    Section
              A summary of instances in which information was refused                      None
    5(a)(5)
    Section   List of audit reports by subject matter, showing the total dollar value of
                                                                                           None
    5(a)(6)   questioned costs and recommendations that funds be put to better use
    Section
              A summary of each particularly significant report                            19 - 37
    5(a)(7)
    Section   Statistical tables showing the total number of audit reports and the total
                                                                                           None
    5(a)(8)   dollar value of questioned costs

    Section   Statistical tables showing the total number of audit reports and the
                                                                                           None
    5(a)(9)   dollar value of recommendations that funds be put to better use period
              A summary of each audit report issued before this reporting period
   Section
              for which no management decision has been made by the end of the             None
   5(a)(10)
              reporting period
   Section    A description and explanation of the reasons for any significant revised
                                                                                           None
   5(a)(11)   management decision made during the reporting period
   Section    Information concerning any significant management decision with
                                                                                           None
   5(a)(12)   which the Inspector General is in disagreement
    Sections
   5(a) (14), Peer Review conducted and outstanding recommendations                          55
  (15), & (16)




                          Semiannual Report to Congress
Page 56                   October 1, 2011 through March 31, 2012
                             A ppe n di x C – A bbr e v i at ions
                                                & A c ron y ms

AMS           Asset Management System
APP           Annual Performance Plan
CFO           Chief Financial Officer, Export-Import Bank
CIGIE         Council of Inspectors General on Integrity and Efficiency
CIO           Chief Information Officer, Export-Import Bank
DOJ           U.S. Department of Justice
ECA           Export Credit Agency
EOL           Ex-Im Online System
EX-IM or
              Export-Import Bank of the United States
EX-IM BANK
FISA          Financial Information Security Association
FISMA         Federal Information Security Management Act
FY            Fiscal Year
GAO           U.S. Government Accountability Office
              Government Performance and Results Act of 1993 and GPRA
GPRA
              Modernization Act of 2010
HSI           Homeland Security Investigations
IBCL          Issuing Bank Credit Limit
IDA           Individual Delegated Authority
INT           Integrity Vice Presidency, World Bank
IPA           Independent Public Accountant
IPERA         Improper Payments Elimination and Recovery Act of 2010
IRS-CI        Internal Revenue Service - Criminal Investigations
IT            Information Technology
LGA           Loan/Guarantee and Accounting System
MD&A          Management Discussion and Analysis
MOU           Memorandum of Understanding
NBF           Nigerian Banking Facility
NEA           National Endowment for the Arts
OA            Office of Audit, Office of Inspector General, Export-Import Bank
OC            Office of Controller, Export-Import Bank
OI            Office of Investigations, Office of Inspector General, Export-Import Bank




                      Office of Inspector General
         Export - Import Bank of the United States                                 Page 57
              Office of Inspections and Evaluations, Office of Inspector General,
      OIE
              Export‑Import Bank
      OIG     Office of Inspector General, Export-Import Bank
      OMB     Office of Management and Budget, The White House
      PCM     Program Change Management
      PCPM    Project & Corporate Portfolio Management, Export-Import Bank
      PMCG    Portfolio Monitoring & Control Group, Export-Import Bank
      PPG     Planning & Policy Group, Export-Import Bank
      RCA     Reports Consolidations Act of 2000
      SBCL    Special Buyer Credit Limit
      SDA     Special Delegation Authority
      SDLC    System Development Life Cycle
      STSB    Short-Term Single Buyer
      USPIS   U.S. Postal Inspection Service




                   Semiannual Report to Congress
Page 58            October 1, 2011 through March 31, 2012
     OFFICE OF INSPECTOR GENERAL (OIG) HOTLINE

            REPORTING FRAUD, WASTE, AND ABUSE

The Inspector General Act of 1978 states that the Inspector General (IG) may receive and
investigate complaints or information concerning the possible existence of an activity
constituting a violation of law, rules, or regulations, or mismanagement, gross waste of funds,
abuse of authority or a substantial and specific danger to the public health and safety.


Whether reporting allegations via telephone, mail, or in person, the OIG will not disclose
the identity of persons making a report without their consent unless the IG determines such
disclosure is unavoidable during the course of the investigation.




REPORTING METHODS
You may submit your complaint or information by these methods:

	 In person:	         At the Office of Inspector General
			                   Export Import Bank of the US
                      811 Vermont Avenue, NW
                      Washington, D.C. 20571

	      By Telephone: 1- 888-OIG-EXIM (1-888-644-3946)

	      By Mail:	      Ex-Im Hotline
                      Office of Inspector General
                      Export Import Bank of the US
                      811 Vermont Avenue, NW
                      Washington, D.C. 20571

	      By E-mail:	    IGhotline@exim.gov
Office of Inspector General
Export-Import Bank of the United States


811 Vermont Avenue, N.W.
Washington, DC 20571
Telephone 202.565.3908
Facsimile 202.565.3988
www.exim.gov/oig
